<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-21] 

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2007

                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-264 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                John Sullivan, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Benjamin Kohr, Staff Assistant































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, February 28 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Air Force......................................................     1

Appendix:

Wednesday, February 28, 2007.....................................    55
                              ----------                              

                      WEDNESDAY, FEBRUARY 28, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Moseley, Gen. T. Michael, USAF, Chief of Staff, U.S. Air Force...     6
Wynne, Hon. Michael W., Secretary of the Air Force...............     4

                                APPENDIX

Prepared Statements:

    Wynne, Hon. Michael W., joint with Gen. T. Michael Moseley...    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................   131
    Ms. Castor...................................................   134
    Mr. Everett..................................................   136
    Ms. Giffords.................................................   134
    Dr. Gingrey..................................................   142
    Mr. Hayes....................................................   138
    Mr. Kline....................................................   131
    Mr. Marshall.................................................   133
    Mr. Meehan...................................................   135
    Mr. Miller...................................................   140
    Mr. Ortiz....................................................   131
    Mr. Saxton...................................................   131
    Dr. Snyder...................................................   131
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 28, 2007.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The gavel, now, will officially come down.
    Ladies and gentlemen, the committee will come to order.
    Today, the full committee continues its review of several 
military services for the 2008 budget request. Today, the 
United States Air Force is with us. And I am pleased to welcome 
back the Secretary of the Air Force, Michael Wynne, and Chief 
of Staff Michael Moseley to testify on their fiscal 2008 
request.
    We thank you and all the Air Force for the wonderful job 
that you do--active duty, Air Guard, Reservists and your 
civilian counterparts.
    There are more than 690,000 military and civilian 
personnel. The Air Force has over 61,000 personnel forward 
based in the Pacific and in Europe. An additional 25,000, and 
more than 250 aircraft, are forward deployed in the Central 
Command area.
    In addition to the traditional combat role of providing air 
support, 7,700 Air Force personnel have supplemented functions 
on the ground with duties usually performed by the Army and by 
the Marines. And we thank you for that.
    We know the Air Force is very much a service at war and in 
combat. It has flown over 430,000 sorties in support of the two 
efforts in Afghanistan and Iraq. And since 9/11, that number 
represents 82 percent of all the operation of Iraq Freedom 
sorties and 70 percent of the OEF sorties.
    The pace of operations in Iraq and Afghanistan and 
elsewhere have stretched the ability of the Air Force to man, 
to operate, to maintain and, particularly, to modernize its ten 
expeditionary forces. And the Air Force fiscal year 2008 annual 
budget request is $110.7 billion, an increase of $6.2 billion 
from last year. It is a significant budget, but this is still a 
force with challenges and an increased risk.
    The budget request for 1.5 million in flying hours is a ten 
percent reduction in hours to train our pilots since last year. 
Depot-purchased equipment maintenance, which accomplishes 
depot-level repairs on aircraft and engines, is funded at only 
74 percent of the amount needed.
    Recently, the Air Force informed this committee of its 
unfunded requirements, which total $16.9 billion, a record 
amount.
    The committee notes that the Air Force has accepted risk in 
readiness to provide for its top modernization priorities, 
which include the KC-X tanker, the Combat Search and Rescue 
CSAR-X combat search-and-rescue helicopter, the aging HH-60G 
fleet and the F-35A Joint Strike Fighter.
    The Next Generation Long Range Strike aircraft, a new 
bomber, clearly remains a top priority, and we need to 
eventually get there.
    On the personnel side, while this budget makes improvements 
to compensation with a 3 percent pay raise, it also includes 
personnel reductions of 5,600 in the active duty, 7,400 in the 
Air Force Reserve and 300 in the Air National Guard.
    I am pleased to note that the Air Force's posture statement 
includes a short discussion of professional military education, 
or, as we call it, PME, for both officers and enlisted 
personnel. That is terribly important.
    And in some years, professional military education has been 
overlooked, when in truth, in fact, it is the best way to 
prepare for and to win in combat. And I compliment you on your 
comments regarding professional military education.
    And let me recognize, finally, September 18, 2007, will 
mark the 60th anniversary of the creation of our independent 
United States Air Force. Our very own Harry Truman, of course, 
was president at that time. And this committee congratulates 
the Air Force, its military and civilian members, past and 
present, on their achievements and their progress.
    I was asked by Mr. Hunter, who had an emergency--does the 
gentleman from New Jersey have a comment at this time?

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Thank you, Mr. Chairman.
    I would like to start out by saying thank you to our 
witnesses for being here with us today and thank you so much 
for your service to the nation. We appreciate it very much and 
I know the American people do as well.
    Every year, we get together at this time to talk about the 
budget requests and each of the service priorities and 
constraints. We talk about goals, plans and programs. We talk 
about budget shortfalls and acquisition strategies that aren't 
working out so well.
    Yet, it strikes me that we never seem to really change much 
because, as we have heard before, we come here to talk about 
more troubled programs, more fiscal challenges and an ever-
increasing need to field equipment to our men and women serving 
the country.
    These brave soldiers, sailors, airmen and Marines continue 
to perform their duties with extraordinary professionalism and 
courage, despite all those over-cost acquisition programs, in 
addition to budget shortfalls and anticipated mission 
requirements. There are the folks that we should never fail to 
praise and thank for their unwavering commitment to this 
nation.
    I would like to read you a piece of former Chairman 
Hunter's opening statement from the last Air Force posture 
hearing. He said, ``The DOD budget legacy is one of missed 
procurement opportunities. This, as you point out in your 
statement,'' he said, ``gives us the oldest fleet of aircraft 
in the history of the Air Force, with the fleet having been 
engaged in or supporting some level of combat for the last 15 
years. The aircraft fleet has been operating at utilization 
rates far beyond those planned. The consequences of age and 
high operational tempo is reflected in reduced readiness rates. 
It is to the Air Force's credit that the professional fleet 
management has achieved the safety record it has at this 
time.''
    So, gentlemen, I ask you, as we sit here today, what is 
different? What lessons learned have been applied to make this 
nation's Air Force better?
    I ask this because I look at the budget request and I see 
operations and maintenance shortfalls. I see excessive cost 
growth in acquisition programs like the C-130 and, especially--
one of my pet peeves--the C-5 modernization program and many of 
your space acquisition programs.
    Why is it that we cannot identify a requirement, develop a 
solution and get it to the war-fighter in a reasonable period 
of time? We have all heard the problems, everything from 
requirement changes due to operational needs, to the contractor 
who failed to perform.
    The bottom line, gentlemen, is that we are a nation at war. 
Our airmen have been flying combat missions over Iraq airspace 
for at least 16 years. The need to recapitalize and modernize 
our legacy system is clear. What is not clear, however, is how 
we go about doing that successfully and responsibly.
    You notified us last year that you were planning on 
reducing your end strength by 40,000 in order to self-finance 
many of the modernization efforts. Despite these planned 
personnel reductions, you also tell us that we have nearly 
10,000 airmen deployed to fill shortfalls in the Army and the 
Marine Corps.
    How do you plan to successfully accomplish your primary 
mission, which now includes support for the airlift 
requirements of a growing ground component, absorb a personnel 
reduction of 40,000 airmen and continue to help the Army and 
Marine Corps fill some of the ground-combat-support gaps? That 
is quite an order.
    While the conflicts of today deserve our utmost attention 
and ample resources, we should not lose site of the strategic 
challenges of tomorrow. The recent Chinese anti-satellite test 
(ASAT) was a clear display of China's capability to hold our 
satellites at risk. American military forces and the American 
economy are dependent on space in everything from the 
battlefield communications to intelligence to automatic teller 
machine (ATM) transactions.
    I hope that we can take some time today to talk about the 
Air Force investments aimed at strengthening the protection, 
redundancy and reconstitution of U.S. space assets.
    I am glad you are here with us and I look forward to 
hearing your thoughts on the state of our Air Force and the 
fiscal year 2008 budget request. I also look forward to hearing 
your thoughts on the difficulties we are having in developing 
and acquiring the new systems Congress has authorized.
    On a final note, I wonder if you would be facing a 
reduction of 40,000 airmen if you weren't seeing so many 
procurement programs over-cost and behind schedule.
    Thank you, Mr. Chairman, and I look forward to the 
gentlemen's testimony.
    The Chairman. Thank you so much.
    Without objection, my statement and the statement from my 
friend from New Jersey, as well as the statements from the 
secretary and the general, will be placed in the record in 
their entirety.
    And we will now recognize Secretary Wynne.

 STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE AIR FORCE

    Secretary Wynne. Thank you very much, Mr. Chairman.
    Mr. Chairman and members, thank you for having General 
Moseley and I here today to testify on behalf of America's Air 
Force. We are extraordinarily grateful for your steadfast 
support and the support of this committee of our nation's 
airmen.
    Leading the men and women of our United States Air Force is 
a high honor. They are responsive, whether answering the call 
for humanitarian relief or providing close air support to 
troops in harm's way. They are agile, keeping America's 
strategic shield in place. With the air bridge to southwest 
Asia now in its 17th year, we are keeping steadfast watch in 
space and in the skies and through cyberspace.
    Given the age of our air and space equipment, there is no 
doubt our freedoms are balanced carefully on the courage, 
skills and ingenuity of our total-force airmen. They superbly 
perform our assigned ground force missions, although all 
realize that the adage, ``Every airmen or rifleman sacrifices 
the very leverage the Nation wants from its airmen in strategic 
and tactical firepower.''
    We look for the ground-force reset to begin to remedy this 
tasking. Our battlefield airmen levy global power through 
technology like the remotely operated video enhanced receiver 
(ROVER), which gives a new level of communication (comm) 
activity and situation awareness to ground troops and our 
pilots, as well as first responders. And we are the only 
service with the dedicated combat search-and-rescue forces for 
all services to employ in the deep battle.
    It truly is an interdependent fight, and we owe our ground 
partners the very best we can muster in leveraging airspace and 
cyberspace assets.
    Your Air Force is in the fight in the global war on terror 
(GWOT) by providing global vigilance through theater-based 
aircraft, space systems and unmanned vehicles. Air Force assets 
are surveying, tracking and identifying enemy positions, as 
well as performing critical counter-Improvised Explosive 
Devices (IED) missions.
    Our C-130's and C-17s execute precision air drop and cargo 
missions, which are saving countless lives by taking dangerous 
convoys off the road. I believe 9,000 soldiers did not have to 
drive convoys in the previous month.
    Our aerial medical evaluation personnel are giving us our 
highest survival rate in the history of warfare. We are fully 
engaged in meeting our wartime requirements, but wear and tear, 
combined with loss of buying power, translates into risk to 
future readiness capacity and capability.
    Last year, I laid out a very difficult strategy to address 
our most pressing need: recapitalizing our aging fleet. The Air 
Force is staying inbounds by trying to self-fund to the maximum 
extent possible through force-shaping on a mission-first basis, 
buying fewer but more capable platforms and implementing new 
initiatives to try to become more efficient throughout our Air 
Force.
    When I was a young officer leaving the Air Force in 1973, 
the average age of our equipment, including space assets, was 
between eight and nine years old. Our fleet age now is triple 
that, averaging 24 to 25 years of age. With this in mind, I 
have advised our airmen that it is their duty to ensure that 
the airmen of tomorrow are as confident and as capable against 
tomorrow's threat as we are today.
    We can only ensure this by intensely husbanding every 
resource, people, flying hours and expenses and dedicating 
freed resources to recapitalization. I ask your continued help 
to allow the Air Force to manage our fleet without legislative 
restrictions and assist us in this duty to our future.
    From a space perspective, we are making the necessary steps 
in the fiscal year 2008 budget to ensure uninterrupted, 
continuous service in communications, early warning, position, 
navigation and timing and environmental-sensing satellites.
    We appreciate your support in the development, procurement 
and fielding of these critical-space capabilities because our 
military and the citizens of our great nation depend upon their 
continuous service.
    As in other domains, your Air Force is now engaged daily in 
cyberspace. We have established within the Air Force a new 
cyber-command to address how we can better train and present 
our forces to U.S. strategic command, the combatant commanders 
and other government agencies to prosecute engagements in this 
domain.
    These are a few of the daily realities confronting your Air 
Force. Now, the strategic concerns us with the proliferation of 
advanced technologies such as double-digit surface-to-air 
missiles, the nuclear test in North Korea and the recent 
Chinese ASAT test, proving that space is not a sanctuary.
    We are responding with our prospective fielding of the Next 
Generation Long Range Strike Bomber by 2018, as well as the 
supporting satellite and tanker infrastructure. To keep our 
total force ready, we must care for our airmen and their 
families.
    In the Air Force, our tenant has long been, ``We recruit 
airmen, but we retain families,'' making the quality of life 
and the standards we apply to that a key component. We are 
providing our airmen access to safe, quality, affordable, well-
maintained housing in a community where they choose to live 
through housing privatization. We appreciate your continued 
support of this effort.
    In summary, your Air Force is in the fight, not just in 
Afghanistan and Iraq, but globally. Your airmen are the 
nation's strategic edge. They are expeditionary, highly trained 
warriors. And with your help, we will provide them with the 
necessary training, equipment and quality of life to keep the 
nation's asymmetric advantage of global vigilance, global reach 
and global power. Recapitalizing our aging equipment 
inventories is the absolute key to this.
    Finally, I want to salute our airmen. They are amazing, 
eager to serve and mindful of their mission all around the 
world. I am proud to be their secretary, and look forward to 
your questions.
    Thank you, sir.
    [The joint prepared statement of Secretary Wynne and 
General Moseley can be found in the Appendix on page 57.]
    Mr. Ortiz. Chief, whenever you are ready, sir.

  STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Moseley. Congressman Ortiz, if you would humor me, 
instead of an oral statement, I would like to introduce a set 
of great Americans here that I know the committee would like to 
know better.
    Let me start off by echoing what the secretary said. We are 
a nation at war. We are an Air Force at war. And these airmen 
are involved in combat operations (ops) on a daily basis, 
fighting this long war on terrorism, defending the homeland, 
participating in activities that provide strategic deterrence 
and dissuasion, participating in activities that provide global 
vigilance, reach and power.
    These airmen are examples of that. And if you would humor 
me, I would like to introduce them to you. As introduce you, 
you all please stand up.
    First one is Lieutenant Colonel Marty McBride. He is the 
commander of the 81st Fighter Squadron at Spangdahlem Air Base, 
Germany. It is an A-10 squadron. He has recently returned from 
Afghanistan, where he led a total force of active guard and 
reserve airmen through continuous, 24-hour-a-day operations 
solid from May to September.
    His squadron flew 2,000 combat missions, 7,000 combat 
hours, delivered 102,000 rounds of 30 millimeter and over 300 
bombs in support of special ops and land-component activities 
in Afghanistan.
    [Applause.]
    Next, is Major Toby Duran. He is the chief of tactics at 
Air Force Space Command at Peterson Air Force Base, Colorado. 
He has served as a space-weapons officer with the First Marine 
Expeditionary Force forward from February to July 2006 in 
Operation Iraqi Freedom (OIF). His job was to ensure seamless 
integration of Air Force systems, space systems and comm 
systems with Marine-ground elements in Iraq's Al Anbar 
province.
    He, alone, ensured that the Marines had accurate systems 
connectivity to provide accurate artillery and rocket fire for 
combat operations, as well as providing all of the key 
attributes of space to include weather, to include navigation, 
to include comm. So this is one of our space experts that most 
people don't know what they do because they do this so well 
people think it is easy. They do it 24 hours a day, seven days 
a week. He is a face on what we provide from space.
    Toby, thanks.
    [Applause.]
    Next is Captain Andie McIlveen. She and I have a 
relationship that goes back to when she was in pilot training. 
We have known each other for a while. She is a combat pilot 
from Minot Air Force Base, North Dakota. She is also a weapons-
school graduate and a weapons officer and Instructor Pilot 
(IP), with 2,000 total flight hours, 360 combat hours and 25 
missions. That averages out to 14.5 hours per mission, if you 
think about it.
    She has deployed to the Arabian Gulf for Operation Southern 
Watch, two times for Operation Enduring Freedom (OEF), two 
times to Andersen Air Force Base, Guam, as part of U.S. Pacific 
Command's continuous bomber presence. She is pretty young to 
have done that. The airplane she flies is 45 years old.
    So here is a face on our bomber crews and our bomber pilots 
that are out there doing this--providing that global power and 
that global reach and that deterrence and dissuasion. Andie 
does this very, very well.
    [Applause.]
    Next is Tech Sergeant Ken Marshall. He is a PJ, pararescue 
jumper. All of us that wear wings and all of us that fly know 
that wherever we go, anywhere on the surface of the earth, if 
we have to dismount from an airplane, the PJ will come get us. 
And that is what Ken Marshall does.
    He was deployed multiple times for a wide range of 
contingency and combat ops: Southern Watch, Allied Force, non-
combatant evacuation operations in Liberia, Operation Iraqi 
Freedom, major combat ops, and most recently, to Balad Air Base 
in Iraq, where he conducted multiple recovery missions in real 
combat settings.
    Besides these contingency and combat ops, he has twice 
provided medical evacuations to support the western White House 
in Crawford, Texas and has been the PJ team leader for back-to-
back space-shuttle launches at NASA and at the alternate 
landing sites at Zaragoza.
    He is the face on our combat search and rescue and he is a 
face on the moral and ethical imperative that we have to go 
pick people up in this world. Anywhere on the surface of the 
earth, under any contingency, the PJ will come get you. And 
here is one of those PJs.
    [Applause.]
    Last is Staff Sergeant Christine Chavez. She is a boomer. 
For all of us that wear wings, there is nothing like a tanker 
and there is nothing like a boomer. She is an aerial-refueling 
instructor boom operator at McConnell in Kansas.
    She has numerous deployments also: Operation Southern 
Watch, Operation Enduring Freedom, Operation Iraqi Freedom, 
major combat ops during Operation Iraqi Freedom. She has flown 
out of expeditionary bases at Diego Garcia, Shaikh Isa and 
Bahrain, at Al Udeid in Qatar, at Al Dhafra in United Arab 
Emirates. She has 163 combat missions totaled and over 1,000 
combat hours.
    She is the face on what provides global reach, global 
vigilance and global power for this country. And that is the 
tanker and the boomer in the back of that tanker that transfers 
that fuel that provides all of this capability. She does this 
and makes it look so easy. And the airplane she flies is also 
45 years old.
    Sergeant Chavez, thanks.
    [Applause.]
    Congressman Ortiz, thank you for the opportunity to 
introduce these great Americans and these great airmen. 
Alongside the Secretary, I look forward to your questions and 
comments and discussions about this great Air Force and the 
future.
    Thank you, sir.
    [The joint prepared statement of General Moseley and 
Secretary Wynne can be found in the Appendix on page 57.]
    Mr. Ortiz. Thank you so much. We are so proud of the work 
that you all do in keeping America safe and strong and a leader 
in this world. So we are very proud of what you do.
    I have a question. As I was looking at the testimony, the 
fiscal year 2008 budget request shows a 10 percent reduction in 
flying hours, which I understand is budget-driven, as opposed 
to a decrease in operations requirements. I am told the Air 
Force will increase its use of simulators for training and 
other efficiencies to reduce the impact of fewer flying hours.
    How confident are you that similar training will be enough 
to keep pilots proficient? I am not a pilot, so you might be 
able to give us some input--how confident you feel that this 
will do the job for those that fly.
    Secretary Wynne. Let me try to start that, and I will turn 
it over to my pilot chief as quickly as I can.
    You are correct in assessing that we are searching for 
recapitalization resources. You are correct in asserting that 
we did not believe that we would be getting top-line increases, 
especially as you see ground forces, with their requirements. 
Therefore, we took a hard set of decisions.
    One of the things we determined is we could find 
deficiencies across our Air Force. And we challenged the 
flying-hour program, just as you have suspected, to try to find 
efficiencies in achieving the same level of quality with less 
resources, just like we are doing across our Air Force.
    We also determined that we were reducing people. And in the 
reduction of people, we should, theoretically, be able to 
reduce flying hours to some degree, just in that alone. With 
that having been said, the chief has got his finger on the 
pulse of the system. And while simulators are an interesting 
substitute for some of the flying hours, I don't believe that 
they do the complete job.
    But now I will ask the chief because he is the pilot 
amongst us.
    Mr. Ortiz. Thank you, sir.
    General Moseley. Congressman Ortiz, we have had to make 
some hard decisions on depot maintenance and on flying hours 
and the reductions in that to be able to protect the investment 
accounts. That is the same thing that the secretary is talking 
about, as we force-shape the end-strength to protect the 
investment accounts. We have taken a 10 percent reduction in 
the flying hours.
    And I am at the verge of not being comfortable with this. 
And I have asked our folks to look at, is there not some way to 
begin to migrate money back, because the simulator business is 
interesting. But at the end of the day, it is a simulator. You 
have to actually be able to fly the airplane and you actually 
have to be able to train the airplane in a combat setting.
    We have a variety of simulators, some of them really, 
really magnificent and some of them are just procedural 
trainers. But the notion that you can substitute simulator time 
for actual flying time--in my view, we have reached the limit.
    We need to be looking at how to get the investment accounts 
so we can get the newer equipment and be able to get into the 
flying-hour programs because this Air Force is at war. And we 
are having to prepare to go into a variety of different 
locations and conduct combat operations that I--my desire is 
for everyone that mounts up in an airplane--they have the best 
training and they have the best capability possible.
    So the 10 percent reduction in the flying-hour program--I 
am on the verge of being uncomfortable with that. And we are 
looking to get the money back.
    Mr. Ortiz. For those of us who are not pilots, now--what is 
a 10 percent reduction? What does it mean as far as hours? I 
mean, how many hours do they--were training before? And the 10 
percent means how many hours of reduction? And what are the 
risks, if there is any risk involved when you do that?
    General Moseley. Sir, that will take a long answer to a 
question. Please let me get the numbers for you for the record. 
But let me also say that because and airplanes are so old, we 
are having problems generating the sorties and the squadrons, 
which we call U-rates or utilization rates.
    And so when a squadron ops officer defines how many hours 
he or she needs for the squadron to be combat-ready, it is very 
difficult now for the maintainers to generate those numbers of 
sorties. So we have continued to dumb down the standard until 
we have reached a point where we are not producing the sorties, 
nor are we producing the total combat preparation that I am 
comfortable with.
    So the 10 percent is just another additive piece of the 
notion of combat readiness in our operations and maintenance 
(O&M) accounts.
    Secretary Wynne. And so, sir, you have explored a scene 
between the chief and I because I think the only answer to this 
is to recapitalize and become a modern Air Force. And I agree 
totally with him that we are at war and we cannot stop funding 
the operations and maintenance.
    And so he and I agreed that I would take the challenge and 
he would keep his pulse on it. And, as he said, he is becoming 
uncomfortable.
    Mr. Ortiz. Thank you.
    Mr. Saxton?
    Mr. Saxton. Thank you, Mr. Chairman.
    And once again, thanks for being with us this morning, 
gentlemen. We appreciate it very much.
    I have two questions and the first one is actually a two-
part question. It has to do with acquisition programs.
    As I look down this list of acquisition programs to replace 
the old aircraft that you have both mentioned at least once 
already this morning--I look at the issues that Chairman Neil 
Abercrombie and his subcommittee are going to have to deal 
with, which include F-22 and expenditures for F-35, KC-X, C-17, 
Joint Cargo Aircraft (JCA), the HH-47 program that made 
headlines this week, C-130 modernization program, the C-5 
modernization program; and then, in space, Tranformational 
Satellite (TSAT), space radar, Global Positioning System (GPS), 
Space Based Infrared Satellite System (SIBRS), and the Advanced 
Extremely High Frequency Satellite System--that is a tall 
order, finding the appropriate amount of funds for all of 
those--for all of programs.
    And at the same time, as I noted in my opening statement, 
in order to self-finance these programs, the Air Force has made 
a decision--apparently made a decision--at least, that was it 
last year--to reduce the number of Air Force personnel by 
40,000.
    I guess the first part of my question is how is that 
working, and will we be able to, as Chairman Abercrombie and I 
begin our deliberations in subcommittee--will it become clear 
to us that we are going to have resources to fund these 
programs?
    And the second part of my question is, sometimes Congress 
does things that, I guess to be kind, in retrospect don't seem 
to be well thought out. And one of those things is that we have 
prohibited the Air Force from retiring old airplanes that can't 
be used. I am thinking of, of course, C-5s, C-130's and KC-135s 
and, maybe, some others.
    Can you tell us, as a second part of this question, what 
kind of an expenditure you are having to make on an annual 
basis to keep those old airplanes around waiting to go to the 
graveyard.
    So, Mr. Secretary, that is my first two-part question.
    Secretary Wynne. Thank you, sir. And I appreciate the 
thrust of it. I know that we have provided you and Congressman 
Abercrombie with a very difficult problem in your subcommittee.
    I would say it this way: We are to the point where the 
question is, ``Do we hold on to our airmen and provide them 
with not as capable equipment as they deserve going into combat 
or do we, essentially, ask our airmen to take on the duty to be 
sure that the next generation is fully capable of fighting the 
next-generation threat.
    I offer you the following: In Baghdad, when we went to 
downtown Baghdad, we only sent in two caliber of airplane--the 
B-2 and the F-117. Between 2003 and now, Tehran has bought the 
next generation of Russian equipment. Caracas is buying the 
kind of equipment that Baghdad had. And I would say to you that 
when reason fails, I think you need to rely on your Air Force 
and we need to rely on the courage of our airmen and be sure to 
give them the most capable equipment to fight that fight.
    That having been said, we are taking a very strong back-to-
basics approach. Both in space and in air, we are fighting off 
the requirements. It is one of the reasons we declared the F-
22A and we asked our contractors and our program managers to 
put iron on the ramp. We want satellites in space and Dr. Sega 
is working very hard and diligently to make sure the 
requirements for the TSAT, for the AEHF, for the GPS-3 are 
baseline and high technical maturity.
    We believe through this, we can restrain the growth in our 
acquisition programs, properly fund them using the technique we 
have described and, perhaps, have a little bit of margin left 
to fill in stressed areas such as the flying-hour program when 
the day is done.
    That having been said, this is a very difficult--and it is 
very difficult to explain, by the way, to our airmen in the 
field at the same time, who are, right now, as was pointed out, 
performing ground-based taskings. And they are seeking a 
question of, ``How far can you go?''
    I have declared that 40,000 full-time equivalents is as far 
as I am willing to go and risk. With the growth in land 
components, it concerns me because I know that I have dedicated 
airmen that go with every brigade combat team. I know that I 
have dedicated airmen that go with every support function. I 
know that if you increase the ground forces, you all of a 
sudden increase the intra-theater lift, which is already 
stressing my C-130Hs. So these things I know.
    So what the chief and I have agreed to do is, over the 
course of this summer, we will try to discern what exactly is 
the ground-force plan, how does it impact our Air Force and 
what does that mean? And did the increase in the ground forces 
mean we have a relaxation in the ground-force tasking? These 
are things that, right now, are a little bit unknown for us.
    Chief.
    General Moseley. Congressman Saxon, I think it is useful to 
talk about the submission of the budget.
    The Air Force spent 2.2 million man-hours putting this 
program objective memorandum (POM) together to square these 
programs, given our physical guidance. And that is to keep the 
major programs alive--the C-130J, the Joint Cargo Aircraft and 
the F22--but also, the priorities that we have established in 
procurement, which is the tanker first, the combat-rescue 
helicopter, our space systems, the Joint Strike Fighter and a 
new bomber.
    All of those are in this budget, and the budget is squared. 
After 2.2 million man-hours of working this and submitting that 
which became the Air Force piece of the president's budget--
everything that you have described is in that budget and 
funded.
    Now, is it funded at the economic order, quantities and 
delivery rates that makes each of them most efficient and 
reduces the cost on each of the items? No, it is not. But to do 
the things that you have asked, we spent 2.2 million man-hours 
working this to make sure those programs are alive. And again, 
that is the tanker, the combat-rescue helicopter, the space 
systems, the Joint Strike Fighter and the new bomber.
    Mr. Saxton. And the retirement program?
    General Moseley. Great question, sir. But before I get to 
that, the programs that we are talking about here, as the 
secretary said--our stress is or our focus is on building an A 
model of those new aircraft so that we don't to spiral the 
system in the early phases of it like some of us have done in 
the past.
    So if we can fill the KC-blank-A model and get it in 
production and get it in squadron service, the boomers of the 
Air Force will have something younger than 45 years that they 
go to combat in--same with the F-22A, same with the F-35A, same 
with the combat rescue helicopter, et cetera. So our focus is 
building the A-model first and then, when it is time for a B-
model or a C-model, we will work that.
    And sir, the restrictions on being able to manage our 
inventory keeps us in the business of keeping the C-130E 
around, the KC-135E around, versions of the C-5, the B-52, the 
F-117 and the U-2. It is about 15 percent of our inventory, as 
the secretary said.
    Our desire would be to be able to manage our inventory and 
be able to flow the new systems in relative to the divestiture 
of the old systems; the congressional restrictions, our staff 
tells us, that is costing us--beginning in 2008, that 
restrictive language will cost us a little over $1.7 billion a 
year to maintain those old airplanes. If you do that math, that 
is about $4.5 million a day to maintain those old airplanes.
    So our desire is to be able to work our way through 
divestiture of the old iron, bring the new systems on board, 
roll that money into acquisition and procurement to ensure that 
the 21st century Air Force is what you want it to be.
    Mr. Saxton. Thank you, Mr. Chairman. I am going to pass on 
my second question. But I just want to emphasize this point--
that we, because of restrictive language in last year's 
authorization bill and years before that--on retiring old 
airplanes, airplanes that have to be maintained to a certain 
state, have to be manned to a certain state, sitting on the 
ground, unable to be used for their old mission because the 
airplanes are worn-out, unsafe and too expensive to maintain in 
flying condition--we are spending $1.7 billion a year to keep 
them sitting on the ground for no reason.
    We passed a bill out of this committee last year with 
language lifting that restrictive language and our bill 
language fell out in conference. And I hope that we can push 
that issue this year because we are wasting $1.7 billion of 
taxpayers' money, monies that could be used for these 
modernization programs. This is a big deal.
    Thank you.
    Mr. Ortiz. I think the gentleman brings up a very, very 
good point.
    Now, I yield to my good friend from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you very much.
    Mr. Secretary, aloha to you.
    General, aloha.
    Following up on the line of questioning so far--Mr. 
Secretary, you and I have had an opportunity to discuss 
questions concerning recapitalization in the context of capital 
budgeting. And other members of the Air Force hierarchy both in 
uniform and civilian--we have had these discussions as well.
    If you will look back on page 41 of your testimony, under 
``Recapitalization and Modernizing the Air Force''--4.0 is the 
reference point--before the ``Comprehensive Plan.'' Really, the 
``Recapitalizing and Modernizing the Air Force,'' the whole 
paragraph there is a masterpiece of what my old journalism 
professor would call glittering generalities.
    I can't figure out what recapitalization means from what 
you say: ``Aggressively recapitalizing and modernizing our 
inventories of aircraft, space systems, equipment, operational 
infrastructure.'' So I read with great interest through the 
rest of it to try and figure out how we were going to do that. 
And I can't figure it out.
    As far as I can tell, ``reinvesting'' means, simply, 
buying. When the word ``reinvest'' is used in here, it just 
means purchase. With reference to what Mr. Saxton said about 
the aging infrastructure, the aging inventory and legislative 
restrictions, that is all outlined very clearly here. The $1.74 
billion figure is on page 43 of the testimony.
    And you cite as reasons for the difficulty--when I say 
``you,'' I mean both of you, because your testimony is joint--
``the detrimental effects of high-tempo operations and age''--
again, very clearly enunciated in here. And then you go to your 
top acquisition priorities, General, and you mention what they 
were.
    Now, if I understood you correctly--I made note quickly--
you make clear what your top priorities are. But then, in 
answer to Mr. Saxton's question, did I hear you correctly that, 
with regard to funding and expected delivery rates, the budget 
is not adequate?
    I believe you made the statement in the form of a question 
and then you answered your own question with, ``No, it is 
not,'' in other words, ``No, it is not funded in terms of 
expected delivery rates.'' Did I understand you correctly?
    General Moseley. Correct, sir. As we submitted our budget 
and we squared our budget and we signed up to this--for 
instance, in the case of the tanker, instead of taking the 
deliveries of the new tanker like the Air Force did when the 
jet tanker was new, when you bought 100 of them a year, we are 
not going to be able to buy 100 of those new airplanes a year. 
We are going to be down in the notion of 12 or 13 or 14 a year. 
That is going to take 35 to 40 years to buy that program out.
    Mr. Abercrombie. Right.
    Now, you were very kind, Mr. Secretary, to mention the 
privatization of housing. And that is probably incorrect--to 
have a partnership between the services and the private sector 
in building housing, taking it out of the MILCON project kind 
of thing--in other words, cash financing of housing--and we 
have moved to actually bringing in private capital to help 
build, maintain and sustain and manage the housing, right? And 
that has worked very well.
    Is it correct--I am just drawing a parallel, not an 
analogy, General--is it correct, then, to say that if we had 
gone through cash financing of housing, it would have been a 
similar kind of thing? We never would have had housing for the 
Air Force sufficient. It would have taken us 10, 20, 30, 40 
years to keep up. But we just did it project by project, right?
    Secretary Wynne. That is, in a sense, what we believe. Yes, 
sir.
    Mr. Abercrombie. Yes.
    Okay. Now, are you facing the same kind of problem now? If 
you say 13 a year, is that because that is the only 
manufacturing capability, 13 a year, or is it the financing 
part of it or both?
    General Moseley. Sir, I think it is part of both----
    Mr. Abercrombie. Okay.
    General Moseley [continuing]. Because we have not been able 
to incentivize industries to be able to get those production 
levels.
    Mr. Abercrombie. The reason you can't incentivize industry 
to do it is they are not sure that they are going to have the 
money the next year or the year after to be able to do the 
building, right? It is difficult for a corporation to make a--
you know, and I am not going to cry tears now for these defense 
corporations that are out there, but their sheer size also 
carries specific difficulties that they have in terms of their 
capitalization, right, what they commit themselves to in terms 
of production lines.
    They need certainty. They need certainty over a period of 
time. And wouldn't delivery rates--if a corporation knew that 
it was going to build the tankers--oh, just give me two seconds 
here because I have got to get through this to get it done 
right.
    You have got to get financing. You have got to have a 
financing system that meets this recapitalization structure. 
And this testimony doesn't get to it, Mr. Secretary. That is my 
point.
    I will have to yield now, but you see where I am going on 
this? We have to find a way to get beyond cash financing the 
defense in the United States. And I tell you right now, the Air 
Force will not be able to do what you say you want it to do in 
2008 if we continue to cash-finance defense.
    Secretary Wynne. I could say one thing, sir.
    And, Congressman Ortiz, I will be brief.
    It is a partnership between the requirements people, i.e., 
the buyers, the industry and the financial. If we were to go to 
an aspect of capital budgeting like you are thinking about--and 
I think it would be marvelous--that partnership would have to 
hold together.
    You witnessed last year, in the F-22--with the sudden rush 
to a multi-year--that we were actually doing the multi-year to 
save a rate reduction from 28 airplanes a year to 20 airplanes 
a year, and trying very hard to make that all square. We did 
not save ``any money,'' because we spent the money reducing the 
rate of production. And, in fact, I think at the end of the 
time, we probably cost ourselves some money, as we always do 
when we stretch a program out.
    Mr. Abercrombie. Bottom line of the point is, Mr. 
Secretary, we have got to start getting creative about 
financing.
    Secretary Wynne. Right. Capital budgeting might have helped 
that.
    Mr. Ortiz. We want to be sure--we have a lot of members 
here--to give them a chance to ask a question. And then, if 
necessary, we can have a second round.
    Mr. Jeff Miller, from Florida.
    Mr. Miller of Florida. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Moseley, for both 
coming.
    General, thank you for bringing those outstanding 
individuals with you. I am still in awe of the information that 
you provided.
    A couple of things--and I will submit the bulk of my 
questions for the record. But you know I have a continued 
interest at Eglin in regards to the RAND study that is supposed 
to be coming out the end of March. And I still have a concern 
that it is not going to address the 2005 Base Realignment and 
Closure (BRAC) findings whereby Eglin is identified as a 
research, development, test, evaluation center of excellence.
    So, Mr. Chairman, with your permission, I would like to 
submit the DOD and BRAC commission comments on Eglin Air Force 
Base's military value into the record. I will not read it, but 
I will enter----
    Mr. Ortiz. Without objection, so ordered.
    [The information referred to was not available at the time 
of printing.]
    Mr. Miller of Florida. The other thing is I would just like 
you to touch on, if you would, the center wing-box issue on the 
C-130's and find out if you think that the budget request this 
year was enough to handle the current situation, because every 
one of us that goes and visits anywhere that there is a C-130 
continues to hear about that issue.
    Could you answer that question, sir?
    Secretary Wynne. Yes, sir. I believe we have done a kind of 
a risk-based funding there because there are some C-130Es that 
we feel like, if it has cracked in such a significant place, if 
you fix that place, it is very likely to crack somewhere else 
that you haven't figured out. I mean, this is really geriatric 
airplane management.
    And to some extent--I mean, at some point in time, you 
actually have to replace the aircraft and not just continue to 
patch it. So what we have done is tried to take the most likely 
that will have a service-life extension, and that is what we 
have funded here. And I think it is reasonably prudent.
    Chief?
    General Moseley. Congressman, the other side of that is the 
H-models, which are newer. We are now burning them up at a 
higher rate because we are lifting so much work off of the 
roads the avoid the IEDs. This is the right way to do business 
and use intra-theater lifts.
    The secretary mentioned that we take at least 8,500 to 
9,000 people off the roads every month. So that is 8,000 or 
9,000 less people to be impacted by an IED attack. We also, 
since September, every month--September, October, November, 
December, January and now, up to February--we have moved 100 
percent of the Marine Corps' road convoy items by air. So this 
comes down on the C-130 fleet.
    The E-models, we try not to deploy into combat because the 
center wing boxes are cracked, the wings are cracked and you 
can't lift the weight nor put the fuel on the airplane. So that 
takes you to the H-models. And we are burning the H-models up 
now at the rate that we did the E-models. So the center wing-
box issue that you are talking about is not just about E-
models. It is an emerging issue with the Hs.
    And sir, that takes us to the procurement of the C-130J and 
it takes us to be able to retire the C-130Es, which were 
prohibited by language and be able to get on with the new 
intra-theater lift fleet that is much more reliable.
    Sir, I was out at Ramstein about a week or so ago, talking 
to the wing commander. He has five airplanes there, five C-
130's. One of them is so hard broke that he can't do anything 
with it. Four others are so restricted because of the center 
wing-box cracks in the wings that he can only lift the crew. So 
it kind of violates the notion of having a cargo-carrying 
airplane if you can only lift the crew.
    So sir, we are seeing this the same way and we are working 
this very hard to be able to divest ourselves of the old 
aircraft, fix the ones that we can keep and get on with the C-
130J.
    Mr. Miller of Florida. And the budget constraints--now, do 
you think we have the dollars necessary to fix those that we 
can?
    General Moseley. Sir, I think it is a start.
    We are having to make tough decisions and balance this 
budget. Like I said, we spent over $2 million man-hours trying 
to balance this budget and get at all of the things that matter 
to us as a global Air Force. And so there have had to be 
compromises made, but it is a start. And if we can retire the 
E-models, that will accelerate us into being able to spend that 
money on those H-models and make sure those are okay.
    Mr. Miller of Florida. Thank you, General. I will submit 
the rest of my questions for the record.
    But I do want to also add, I get to do something exciting 
this weekend--we all do. On Saturday, I will be attending a 
ceremony at Duke Field--speaking of lifting with C-130's--the 
919th Operations group, a Reserve unit, will receive the 
Gallant Unit Citation--the first reserve unit ever to receive 
that. And I know that both the Secretary and the Chief send 
their regards, and this committee will as well, to these 
outstanding airmen and women.
    Thank you, sir.
    The Chairman. Mr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here.
    General Moseley, I want to continue this C-130 discussion. 
When that very dramatic and tragic footage of the service plane 
from several years ago, where the wings came off--it was an A-
model, I believe--was that a wing-box problem?
    General Moseley. Sir, I am not sure. I think it was an A-
model, and I don't know if it was a center wing-box problem or 
just metal fatigue that the owners of it hadn't been watching.
    Dr. Snyder. That is the kind of thing that you--the most 
apprehensive about when you are dealing with old metal fatigue?
    General Moseley. Yes, sir.
    Dr. Snyder. Recently, the Chief of Naval Operations (CNO) 
suggested the Goldwater-Nichols Act, which we all believe in--
thought that it ought to be changed or reformed to put the 
service chiefs--you, General Moseley--more directly into the 
acquisition process so that there would be more direct 
responsibility that you all would have. What do you think of 
that?
    General Moseley. Sir, I agree with that.
    I think Goldwater-Nichols has done some great things. I 
think there is some opportunity to have a Goldwater-Nichols for 
the inter-agency that does the same thing for the inter-agency 
that is done for the Department of Defense and the services. 
But I also think it might be time to ask that question about, 
``Where do the uninformed leadership live inside the 
acquisition system?''
    Dr. Snyder. I don't think there is anyone in the military, 
out of the military or in the Congress or out of Congress that 
is satisfied with the acquisition process. And Goldwater-
Nichols took years to come about. And I am not sure we are 
going to take the years to make those kinds of changes. So we 
may need to pick at some of those things. And that may be one 
we can look at.
    I guess about four weeks ago, you all did the formal 
notification that the C-130 avionics modernization program 
(AMP) had run into some cost problems--a cost breach. General 
Moseley, would you describe that for us and where that is going 
to lead us and how that is going to get us to where we need to 
go in terms of the amount of lift capacity you need for intra-
theater lift.
    General Moseley. Sir, we did have some challenges with that 
program. And remember, the original program was for an avionics 
modernization program for every single C-130, and we have close 
to 600 of them. As we have looked at this over time, we believe 
it is probably better to do the H-models and then configure the 
airplanes so that they are compatible with the J and, perhaps, 
not spend that money on the C-130E because those are the ones 
the congressman referenced that have the center wing-box 
cracks, the wing cracks, et cetera.
    So we are in a little bit of flux over that AMP program 
right now, looking at the best way to proceed. But I think you 
would be----
    Dr. Snyder. What was the specific cost-breach notification 
that you gave us? That was not just a reevaluation of the 
program, there was problems----
    General Moseley. No, sir, there were--that is right, sir. 
If you will allow me to take that for the record, I will get 
the exact details for you.
    Dr. Snyder. Okay.
    You and Mr. Saxton, with his good discussion that you all 
had about the legislative restrictive language that we had 
tried to remove in the House bill--as I looked over you all's 
formal presentation to us, I didn't see a whole lot in there of 
specific legislative suggestions that you are making to us 
beyond--you know, we have had that that we will pursue in terms 
of removing that restrictive language.
    But for both of you, what other legislative, specific 
things do we need to look at in this year's defense bill?
    Secretary Wynne. I think, sir, we have asked for a little 
bit of relief on the use of the National Guard and the chain of 
command, because one of the things the Air Force is doing with 
its total force--and I am very proud of those folks in 
Florida--but we are actually now moving our National Guard to 
where they are training our people. And they train our people, 
if you will, because they are more mature, they have more time 
on that device and we don't have that many of some things.
    Dr. Snyder. We have that same going on at the Little Rock 
Air Force Base.
    Secretary Wynne. Yes, sir. And we are right now working our 
way through this in as best a way we can, trying to comply with 
the law. But it would be much easier for us if there was some 
legislation in that area.
    Dr. Snyder. Have you all provided us with some----
    Secretary Wynne. I believe we have provided some thoughts 
on that to you.
    By the way, we are on our own here. I think the DOD is not 
quite aligned in this regard. They do not reach back as much as 
we do and they are not as reliant, if you will, on the National 
Guard, as we find ourselves reliant. So we are, in fact, 
working our way through as best we can on a one-off basis.
    We also are talking to you about some energy concerns that 
we have, trying to figure out a way to spark America in their 
energy programs in a different way to allow us to, essentially, 
be a long-term buyer of alternative fuels. So those are two 
things we are working on.
    Dr. Snyder. General Moseley?
    General Moseley. Congressman, there is another piece of 
this that we have got some proposed language for you all to 
consider on our Air University and our ability to continue the 
accreditation there so we can help our enlisted folks get 
bachelor's degrees quicker. We can do distributed learning 
quicker. I mean, there are some wonderful opportunities here in 
this deployed Air Force that we can do much better at Air 
University.
    Sir, back to the Guard and Reserve--we are a big believer 
in total force. You have known us all very well, and when you 
walk around Little Rock, you can't tell the difference between 
a guardsman, a reservist or an active-duty airman. Right now, 
commanding the unit up at Kirkuk in northern Iraq is a 
Guardsmen and his senior enlisted command chief is also a 
guardsman. And they are from St. Louis. He is the wing 
commander of the Guard unit at St. Louis.
    We have no issues, and encourage the ability to have a 
guardsman or reservist out commanding those units. And so this 
total force, this seamless approach for us is a big deal. And 
the ability for us to operate seamlessly in the future for 
homeland security, homeland defense or outside the United 
States, that is a big deal for us.
    Dr. Snyder. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for everything 
that you do. Those terrific airmen behind you, officer and 
enlisted, make us proud every day. So thanks for your 
leadership and your presence.
    A couple of comments--I am very, very concerned, and I have 
expressed these concerns with the other service chiefs and 
secretaries, that we are trying to modernize a force and reset 
it or reconstitute it and fight it all at the same time. And on 
the one hand, we are doing a fabulous job at that. On the 
other, I am worried that we are getting increasingly behind.
    General, I am looking at you because you talked about the 
C-130H. You have got Es that have cracked boxes, so you can't 
fly anything but the crew or you can't fly them at all, you are 
putting more and more work on the 130Hs. You are now flying 
them. I would like to have the answer for the record, what 
percent of utilization you are flying those 130Hs at.
    But the point is you are flying, I hope no literally, the 
wings off of them. And we see the same thing in the Navy; for 
example, the P-3s. Those P-3s, they are getting tremendous use 
and they are really pouring utilization on them.
    So I am very concerned that we are not keeping track with 
that. And the budget is not accounting for that extraordinary 
overuse, if you will, of the assets. And I am using the C-130 
because we have already talked about it. But across the board, 
this is just more a plea to you to please make sure that we are 
looking at this equipment and we are not slipping further and 
further behind in resetting that force.
    And I don't know what I can say, but, please--we can't 
always see that. We need you to tell us what you really, really 
need to make sure that we are resetting the force properly 
because of this extraordinary and unprogrammed for utilization 
of our assets.
    And then, I was surprised and shouldn't have been when you 
said 2.2 million man-hours in POM-slant-budget preparation. I 
know it takes an enormous amount of work. And yet, at the end 
of that, in your testimony and in responses to Mr. Abercrombie, 
there are some shortfalls. You squared the budget, but at some 
considerable cost.
    The 10 percent reduction in flight hours, I find that 
frightening because, to me, it is a harbinger of things to 
come. And I can flash back--sort of a nauseating look back--to 
the past in the bad, old 1970's, when we were all out of 
flight-hour program in all of the services and we were parking 
aircraft and waiting until the end of the fiscal year before we 
could fly again simply because we couldn't do it.
    So please look at that 10 percent reduction. Don't let it 
be the start of a 15 percent reduction, of a getting to the 
second of September and have to park them and not fly them.
    And then just finally, I am very concerned that the budget, 
frankly, doesn't tell us everything that you need. I know you 
are fiscally constrained. ``You have a top line,'' DOD is 
telling you. But clearly, if you are looking at things like a 
10 percent reduction, if you are flying the wings off the 130-
Hs and we are not replacing them fast enough, the budget ought 
to have a--there ought to be--their unfunded-requirements list 
ought to be pretty big. And I haven't seen that.
    And I would like to see the unfunded-requirements list, 
Secretary.
    Secretary Wynne. Mr. Kline, interestingly enough, I heard a 
stat this morning that sort of stood me up. And it was that the 
United States Air Force is buying fewer airplanes than any 
other service--and we are the United States Air Force--and most 
of those are unmanned predators.
    Mr. Kline. Well, we have a pretty--I am very proud of the 
Air Guard in the Minnesota, where we have got F-16s we are 
operating, C-130's. And I look at those C-130's--Air Reserve as 
well--C-130's. And I am just very, very concerned. I know this 
sort of repeats itself as we come through budget cycles. What 
are we doing with these 130's?
    Well, we know what we are doing with them. We are flying 
them. Your terrific men and women are flying those 130's and 
they are flying them an awful lot. And I am just not real 
comfortable that we have accounted for this domino effect with 
the 130Es. We can't fly them because of problems, so we are 
overflying the 130Hs. I am not sure we have got the Js coming 
in.
    I guess I don't have a question here except whatever I 
spoke for the record.
    But thanks for the great work that you are doing and be as 
forthcoming as you can with what you really need.
    General Moseley. Congressman, the other challenge, which I 
know you will appreciate, is while we are an Air Force at war 
and we are a nation at war, we are flying those 130's to take 
people off the road so we don't have to deal with IED attacks. 
So if we can take 8,500 or 9,000 Americans off the road--or 
coalition people off the road----
    Mr. Kline. Right.
    General Moseley [continuing]. That you don't have to face a 
loss of limb in blast and frag and burns, that is a good thing.
    Mr. Kline. Yes, it is.
    General Moseley. The challenge that we have got is while we 
are fighting this global war on terrorism, we are at the bottom 
of a procurement holiday that has lasted decades. And so the 
Air Force's mission is a global mission. We live in the world 
of strategic deterrents and dissuasion. We live in the world of 
space. We live in the world, now, of cyberspace. We live in the 
world of having to have a jet tanker to be able to enable 
everything that we do in this country.
    So while we are fighting in Al Anbar province, we are also 
dealing in a very uncertain world with a very uncertain 
strategic setting. So the 2.2 million man-hours is an attempt 
to square every single program that we have got to keep the 
major programs alive, live within the physical guidance, live 
within the law that Congressman Abercrombie is talking about, 
and still progress on those procurement programs to be able to 
field these new systems----
    Mr. Kline. No, I understand that. And, clearly, there is 
not enough money in this budget to do what the Air Force needs 
to do.
    And thank you, Mr. Chairman, for your indulgence.
    General Moseley. And, Congressman, no one has come to 
either one of us lately and said, ``You can stop doing 
something'': ``You can stop doing something on a global scale. 
You can stop doing something in space. You can stop doing 
something with bombers or tankers. You can stop doing something 
with C-17s or C-130's.'' I haven't seen it.
    Mr. Kline. And not likely to today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary and General Moseley, thank you both for being 
here. I am very proud to meet the airmen behind you.
    I am also proud that at Travis Air Force Base in my 
district, Senior Airman Eric Pena was selected to be one of the 
12 outstanding airmen of 2006. Not surprising--I think they are 
all outstanding.
    I am trying to get to the bottom--and you and I, both of 
us, had a conversation in the anteroom a few minutes ago before 
the hearing started. I take some responsibility for advocating 
for more C-17s in the last cycle. I am proud to say that I am 
very interested in keeping that production line warm or, at 
least, if not hot, warm.
    My problem is that I don't understand why we are trying to 
make the C-17 and the C-5 fungible. They are not the same 
aircraft. They are not the same airframe. They don't have the 
same mission and they don't have the same capabilities. And I 
find myself frustrated. I think a lot of members find 
themselves frustrated in that, apparently, we have got to pick 
one. And I feel a little like ``Sophie's Choice.'' I don't want 
to have to pick one.
    And I think that what is confusing to me, General Moseley, 
is in your testimony on page 57, you basically go on to talk 
about how the AMP program and that--and for the C-5. You know, 
we are going to keep doing that. But I know that you are 
basically telling everybody you want to ditch the C-5As.
    Now, the C-5A, as far as I understand, has a lower rating 
when it comes to its operational capabilities and its 
readiness. But it is really the guard and reserve plane and I 
am not sure that it gets online as quickly as others to get the 
best equipment, the best O&M and all the other things.
    So help me deal with the fact that they are not fungible 
planes, they don't have the same airframe, they don't have the 
same mission, they don't have the same capabilities. We still 
need C-5s because we are leasing Russian planes because we 
don't have enough C-5s.
    So I don't know why I should have to be Meryl Streep in the 
movie, where I have to pick one kid or the other. I know we 
need both. I think you know we need both. I know that we have 
budget constraints that are forcing us to pick one or the 
other. That is not good policy for the American people. It is 
not good for our Air Force.
    Help me understand why we cannot have a blended portfolio 
that includes C-5s that are being retrofitted and maintained 
properly and are extending their life and still have new C-17s.
    General Moseley. Ma'am, they do have the same mission. They 
are strat airlifters. They have different cube sizes. You can 
get different things inside each of them. But they do have the 
same mission, and that is to be able to move strategic 
materials anywhere on the surface of the earth.
    Ms. Tauscher. Well, they may have the same mission, but 
they don't have the same capabilities.
    General Moseley. The C-5 is a little bit bigger. There are 
things that will fit in a C-5 currently that won't fit in the 
C-17. But again, the C-17, you can land it on a riverbed. You 
cannot land the C-5 on dirt. So the balance of these two 
airplanes is the critical piece. You are asking the right 
question.
    In a perfect world, we would like to be able to manage that 
inventory and divest ourselves of the bad-acting tail numbers, 
and some of them are bad actors. They are broke. A lot of the 
C-5As have low flight hours on them because they are broke and 
you can't fly them.
    Ms. Tauscher. With all due respect, are they broke because 
they haven't been maintained because they were, basically, 
detailed to the guard and reserve and didn't have the right 
maintenance?
    General Moseley. Well, ma'am, remember, the guard and 
reserve has probably the best maintenance in the world, but 
they work one shift. And so the ability to keep the airplanes 
flying--an F-16 or a reliable C-5 or the C-17s at Jackson or 
the C-130's that are in the Guard or the Reserve are the best-
maintained airplanes in the world, even with one shift.
    But the C-5 is a complicated airplane to operate. So in the 
perfect world, I would like to have the authority to be able to 
retire the ones out that we want to retire. That is not all of 
them. If you lined up the 59 A-models, the two C-models and the 
49 B-models--if you lined them up from best airplane to worst 
and began to work your way from the worst airplanes forward, 
retire those old airplanes out and back-fill that with 
something else, I would be happy.
    And I would still like to progress with the AMP program on 
them and I would like to progress beyond the work program to 
see where we really go with this. And that is where we are 
right now.
    But right now, we are restricted from any divestiture of 
those airplanes. And so, when you conduct any study at any 
strategic level, and when one of your premises is that you 
don't impact the CRAF, the Civil Reserve Air Fleet, then there 
is a number of strat airlifters that is a sweet spot. And we 
are about there with 300 or so.
    So if you can get rid of the oldest, worst actors, and 
replace those with something newer and still maintain about 300 
airplanes and hold on to whatever A-models that are good, I 
think that is the perfect world, regardless of whether it is 
Guard, Reserve or active. But right now, we can't do that.
    Ms. Tauscher. Well, General, I am more persuaded than I 
have been and I am willing to talk to you some more about this. 
But I just worry that some of these decisions that we are 
making are purely financial decisions and that the strategic 
decisions that we need to be making are--I believe you are 
advocating them, but I think that we are being forced, because 
we have the war in Iraq sucking all the money away--that we are 
making decisions that, perhaps, are not going to be in our 
long-term strategic interest.
    General Moseley. Well, ma'am, you know your Air Force works 
every day to try to maintain that strategic setting and to not 
make decisions in a preemptive measure that then closes doors.
    For instance, the Fleet Viability Board Study on the C-5 
says even after you AMP and rep the A-model, you have only got 
a 25-year airplane left. We are lead time away from what 
happens to those squadrons and those units when that airplane 
goes away.
    Ms. Tauscher. Thank you, General Moseley.
    Thank you.
    The Chairman. Our good friend from Georgia, Dr. Gingrey, is 
next.
    Dr. Gingrey. Well, Mr. Chairman, thank you. I wasn't quite 
ready, but I guess it is time. And I will proceed. I missed----
    The Chairman. I will bring that clock back 10 seconds, 
then.
    Dr. Gingrey. Thank you, Mr. Chairman.
    This issue about the C-5 and what we do with it--I think, 
General Moseley, I wanted to address that. And it is probably--
maybe to what Ms. Tauscher was--her line of questioning. I wish 
my good friend--and, maybe, Representative Marshall will be 
here before the hearing--my colleague from Georgia. I know he 
is very, very knowledgeable about this subject. He has looked 
in it very closely with the work that is being done with the C-
5 modernization program, both at Warner Robins in Macon, 
Georgia, just below Macon, and also in my district in Marietta.
    So, you know, the test results have been gathered and 
assessed. Can I assume, then, that you support that requirement 
to test and assess before making any decisions to retire any 
aircraft?
    You know, I guess it all gets down to the question of 
lifespan. I mean, if you increase it 25 years, it seems to me 
25 years is, you know, a pretty good amount of life that you 
would not want to just turn to the scrapyard. So, I mean, I 
have some concerns about this. And I realize that there are 
some competing resources and opinions in regard to airlift and 
what the balance needs to be.
    But I wouldn't be too quick to get rid of A, B, C-models. I 
mean, you know, depending on what the life expectancy is, what 
we can do with the modernization of the avionics program and 
the engine itself. So, you know, maybe there is a little 
parochialism here in regard to my concern, but please take this 
discussion a little bit further for my benefit. I appreciate 
it.
    Secretary Wynne. Well, sir, we intend to comply with the 
law. And the law currently is that we conduct that test and 
that we do not retire any airplanes until we have that done. 
And the law further goes that we cannot retire any airplanes no 
matter what the outcome of the test is. We intend to comply 
with the law.
    That having been said, the cost of compliance is rising 
rapidly. And it is basically eating our ability to recapitalize 
other air fleets. And right now, we are, in fact, evaluating a 
Nunn-McCurdy breach on the C-130--on the C-5A re-engining 
program--because we just can't get the engines anymore. I mean, 
some of our suppliers are not available. The airplane is 
getting to that point where we actually have obsolescence costs 
that are fairly high.
    So one of the things that you are asking us to do--and I 
think, fairly so--is try to figure out--and we will do this 
over the course of the summer--what is the right thing to do 
here. And we will be back to you. And right now--just an 
assessment--it looks to us like doing the B-models and the C-
models is the right thing to do. In fact, keeping some of the 
A-models appears to be the right thing to do.
    I think Congressman Tauscher hit it about right. There are 
some that are really bad actors. And I think if you gave us the 
right to manage the fleet, you would find that we would manage 
it in a way that would actually retain the best mission 
profiles across the thing. I think having these restrictions 
and causing it was an outcropping, frankly, of a BRAC process 
that is behind us.
    Dr. Gingrey. Right. Mr. Secretary, thank you. And I think 
exactly what you said is what we want to do. I mean, that is 
our goal in regard to this particular platform.
    General Moseley.
    General Moseley. Sir, just like I told Congresswoman 
Tauscher, if I could line up the best B-model or the best A-
model at the head of the line of 59, two and 49, and go to the 
back end of the line and begin to kill off the bad actors and 
replace them with something new, I would be very happy. That 
doesn't mean all of them. It doesn't mean that we class or 
block, retire airplanes. It just means, ``Let us get at the 
tail numbers that are bad actors. Let us go through the AMP 
program and the rep program because we will comply with the 
law.''
    But sir, I will tell you, the A-model is 35 years old--35 
years old. And we buy 25 more years on it, we are lead-time 
away from what comes after that. Hanging on to old airplanes 
for 35 or 40 or 45 or 50 years gets to be problematic. In 
January 1937, the Army Air Force took the delivery of the first 
B-17. That was 70 years ago. We will fly the KC-135 probably 
that long. I don't know what I would do in combat with a B-17 
right now.
    Dr. Gingrey. Thank you, Chief Moseley----
    General Moseley. Sure.
    Dr. Gingrey [continuing]. And Mr. Secretary.
    And I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you very much, Doctor.
    Next would be Mr. Larsen.
    Mr. Larsen. Mr. Secretary, Chief, thanks for being here.
    I have three broad issues. I am not looking for an answer 
on that, but I do want to--or, actually, four--and I just want 
to quickly highlight them for you so you know they are not 
being ignored, basically.
    One is on the China ASAT test. I have already submitted 
questions for the record when the Secretary of Defense (SECDEF) 
and Chairman Pace were here. I assume those questions will get 
to your folks working in the Air Force, along with some other 
folks, to get answers back.
    I just do want to emphasize that I would ask for answers to 
those before we move to markup. So there is some time, but I do 
want to emphasize that we do want to get some answers because 
it may have some impacts on where we move in the future.
    Second issue is satellites. I am meeting with Dr. Sega this 
afternoon, so I won't ask any questions about satellites, but I 
do imagine that I will be discussing past challenges and 
changes to meet those challenges to some of the satellite 
programs. I am absolutely sure Dr. Sega anticipates those 
comments from you as well. But we have a good working 
relationship with him, and so--just to headline that.
    The third issue is, in your testimony, the energy-
conservation--some of the efforts the Air Force is doing in 
that. Again, I just want to underline that for you. So, just to 
kind of highlight that, that is a good thing to keep in mind, 
keep moving towards. In case you don't hear from anyone else, I 
think it is good that you highlighted it in your testimony and 
I think you will find support from the committee to move 
forward on it.
    Fourth--of course, I would be remiss if I didn't mention 
the word tanker. But by the same token, I am glad to see you 
are moving forward on that. We will see how the process works 
out over the next several months about the choice the Air Force 
makes.
    But then, the fifth thing--and this is more directly for 
Chief Moseley--the Washington State Delegation did send a 
letter to you--this is with regards to the Fairchild Air Force 
Base KC-135 tanker contingent, 141st, sent a letter February 
16, 2007, to you regarding the movement of the 148 of the 135s 
assigned to 141st to another Air Force base, and then, 
proposing a solution to that as well, to get eight back to 
Fairchild.
    And first question I just want to ask is--I am sure you 
have seen the letter because you get so many important letters. 
And this one is the most important, I am sure, on top of your 
list. And second, do you have any comments? You have had it for 
12 days, presumably. Have you taken a look at it yet? When do 
you plan to take a look at this letter and, perhaps, move 
forward on it?
    My understanding is that it is tied to what some governors 
are doing with litigation. So I want to appreciate that caveat.
    General Moseley. Sir, we have seen it and there is an 
answer headed back to you. The challenge we have got still 
revolves around the divestiture of the KC-135Es.
    Mr. Larsen. Okay.
    General Moseley. We would like to be able to retire the KC-
135Es and be able to move the crews into the KC-135Rs so we can 
generate more sorties with the R, which is a much more reliable 
airplane. The base at Fairchild, the base at Grand Forks, the 
base at McConnell, the base at MacDill and a variety of guard 
and reserve Bases have those Rs.
    So our challenge is to be able to get the R-model into the 
sortie-generation place that we need to protect the airspace 
over the country, as well as our air bridge that is 24 hours a 
day, seven days a week across the Pacific and the Atlantic and 
our combat operations that our boomer has been involved in all 
so often in deployed locations.
    So sir, we have got the answer headed back to you.
    Mr. Larsen. Do you have a timeline on that?
    General Moseley. Sir, I will ask the guys here. I mean, I 
don't know that. Yes, sir.
    Mr. Larsen. Okay, all right. Well, I would appreciate that 
if you could get back to my office on this timeline.
    General Moseley. Yes, sir.
    Mr. Larsen. I appreciate that.
    Thank you. And that is all I have, Mr. Chairman.
    The Chairman. Thank you, Mr. Larsen.
    Next, our good friend from Arizona, Mr. Franks, will be 
heard.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, General Moseley. Thank you, Secretary 
Wynne--all of the people with you. We are always grateful for 
your courage and for your commitment to what you do and how you 
help all of us.
    General Moseley, if it is all right, I would like to start 
with you. I am sure you are familiar with Luke Air Force Base, 
where the largest fighter wing in the world, about 185 F-16 
aircraft--trains more F-16 fighters than anyone else in the 
world and has a special relationship with the Goldwater Range, 
which is one of the premier ranges of the world.
    With that said, I just have to suggest to you that this 
just happens to be in my district. But I wondered if--related 
to the JSF--the F-35 Joint Strike Fighter--if you have been 
able to compose any criteria or timelines related to what 
facility might be the best training and operational base for 
that aircraft, and if Luke has a possibility of fitting into 
that scenario.
    General Moseley. Sir, Luke is critical for us on so many 
levels. That is why you see us get fairly agitated about issues 
of encroachment around Luke, because the Goldwater Range is a 
national treasure like the Nevada Test and Training Range and 
the Utah Test and Training Range. Anything that limits our 
access to those ranges then begins to limit the effectiveness 
of the base.
    So that is why we wave our arms and get fairly agitated if 
we think we are being encroached. Sir, Luke is important, as is 
Tucson International for F-16 training on the international 
side, as well as on the domestic side. We will have F-16s for a 
long time, so the ability for training command to operate at 
Luke is critical for us.
    For the F-35, the first training base will be at Eglin. 
After that, we have released some environmental-assessment 
notifications on follow-on bases, and we are just working our 
way through that. We will need to get the coalition partners 
and the international partners, as well as the department of 
the Navy with the Marines and the Navy on board with us at 
Eglin and get that started up. Out of that, then, we will begin 
to go into unique Air Force Bases. But you know we will have to 
have a base close to a range.
    Mr. Franks. So, there is a possibility, General, that Luke 
might be a candidate for sort of a post-graduate follow-on for 
some of these pilots from Eglin at some point?
    General Moseley. Well, sir, I think, perhaps, a different 
way to say that--well, the F-16s will eventually go away. And 
the ability to be able to continue to train on the Goldwater 
Range makes Luke so critical for us.
    Mr. Franks. Well, with your permission, Mr. Chairman, I 
would like to submit just a few questions for the record that 
we could follow up on later. And maybe I could shift gears here 
just for a moment. Thank you, sir.
    Secretary Wynne, you know, there is a little debate going 
around here related to the reinforcements going into Iraq and a 
lot of different perspectives on how to ``manage'' that. And I 
think, personally, one of the worst things that we could do as 
a Congress is to try to micromanage something that the 
president has the constitutional power and the best opportunity 
to manage in the best way related to the reinforcements in 
Iraq.
    But a part of that debate has centered around maybe turning 
some of the armed forces guidelines for equipment training, for 
some--taking some of your guidelines and turning them into 
regulation. And some of the military experts have said that 
forcing us to--whether it is bringing people in or out of the 
theater on certain timelines or making them train with certain 
equipment--some of those guidelines, at this point, might not 
be realistic.
    And I guess I would like to--you know, it harkens back to 
what was said earlier about the C-17 and the C-5. When you can 
manage things on the ground without being micromanaged from 
people who really don't know what is happening, I think there 
is a tremendous advantage there.
    Can you speak to that related to some of the training and 
equipment guidelines related to the surge or the reinforcements 
going into Iraq?
    General Moseley. I am going to reach way back into my West 
Point and say that if we codify the infantry tactics, we would 
be fighting that style of war right now because we would be 
trying very hard to get laws passed, if you will, to uncodify 
some of the badder infantry tactics that we lost people with 
before.
    If we codify infantry tactics now, we would lose the 
perspective of the ROVER, which is the Remotely Operated Visual 
Enhancement Receiver, which is the little laptop computer that 
people are using. So I would say that our training is morphing 
every day. And to take away the ability of our soldiers to be 
ingenious in their approach to warfare would be extraordinarily 
detrimental to essentially the American way of war.
    We always think that when we turn an F-22, for example, 
over to the pilots to fly up in Alaska and over to Hawaii--we 
would lose their ingenuity in using that if we ended up having 
to come to you with a flight manual and codifying it that this 
is the way we do it because we don't know what they know. And 
we, as a nation, I think, have benefited extraordinarily by 
letting the people on the ground, if you will, manage the 
ground.
    And a long time ago, I realized that you cannot manage with 
a long screwdriver on operation.
    Mr. Franks. Well, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The chair now recognizes the gentleman from Georgia, Mr. 
Marshall.
    Mr. Marshall. I thank you, Mr. Chairman.
    Can you all hear me okay?
    Thank you both for your service. You are doing a great job 
leading our Air Force. I appreciate it very much. I am pleased 
to co-chair the Air Force Caucus this go around and anything I 
can do to help, just let me know.
    General issues, then a few parochial issues.
    Where the tanker is concerned, one of the things that you 
have heard me say time and again is that this is an opportunity 
for us to develop a model that we might be able to use DOD-wide 
with regard to sustainment, modernization, maintenance over the 
lifetime of the platform.
    And it is because Airbus is bidding and Airbus is going to 
come in and say, ``Look, we want to assure you that you are 
going to be in complete control of this. We are not going to 
hold you hostage. France isn't going to hold you hostage,'' et 
cetera.
    And since Airbus is going to have to do that, it seems to 
me that that is an opportunity to get Boeing to do the same 
kind of thing--you know, apples to apples in comparison--and 
then to use that as a model to avoid the C-17 fiasco that we 
basically have right now with trying to figure out how we are 
going to be cost-effective in our long-term maintenance.
    And could somebody--I know you all have been working on 
this. Could I get a briefing, maybe in my office, on this 
subject? We don't need to go into it right now, but where are 
we exactly? And can we apply that same model to the JCA--
similar kind of concept to JCA? I think the Army is willing to 
do it. I know we have gone back and forth on CLS where Army is 
concerned. That is their business model--suggest that is the 
appropriate thing. We know it is not. And so I am willing to 
help with that as well--and if I could get a briefing on both 
those things.
    Mobility-capability study--are we going to revisit that? I 
mean, I think the general consensus here is that we think that 
is a pretty fundamental law because assumptions were imposed 
upon those doing the study, and those assumptions that had to 
be taken into account were assumptions that you can look at and 
conclude aren't all going to come true. And then, there was the 
tail end, in which those doing the study said, ``Oh, by the 
way, we have got some other things we need to look at before we 
finally make up our mind about this.''
    Are we revisiting the mobility-capability study?
    General Moseley. Sir, a different way to answer that is, 
now with the growth in land-component activities and with the 
surge on the horizon, there is an opportunity to go back and 
see what that really means. And that work is ongoing.
    Mr. Marshall. Well, I think that is real important to us. 
You know, I think that what we did was we pegged our future 
fleet at the bottom end of the range set by this mobility-
capability study. And if that mobility-capability study is off, 
we have left ourselves--I mean, if it is too low, we have left 
ourselves no margin at all for error.
    General Moseley. But Congressman, we have had this 
discussion before, and I can't tell you how much I appreciate 
your help in all this. But the balancing of the portfolios is 
also very important to us--about our new bomber, about our 
space systems, about the tactical systems, about our UAVs and 
our new sensors, the JSTARS, the AWACS, the rivet joint--all 
also ride on a 707 airframe.
    And so this tanker decision is a huge decision for us 
because it takes us down the path of an airplane that we can 
probably use, then, to recap somewhere later those aging ISR 
systems. So sir, the mobility portfolio is a big deal, but so 
is the global strike and so is the global ISR portfolio. That 
is our challenge.
    Mr. Marshall. Well, but we have got to have a handle on 
this mobility-capability study. That is a key part of the deal. 
All these others are as well.
    General Moseley. Sure.
    Mr. Marshall. But we don't need to be fooling ourselves 
about what our real needs are.
    General Moseley. Yes, sir.
    Mr. Marshall. And then, if we have got to come up with 
resources, we have to come up with resources. That is our job. 
But we need to understand what those needs are.
    Chief, is there any chance that, on the record here, you 
can comment on things we have talked about with regard to the 
software support facility and personnel system?
    General Moseley. Sir, we are working that within our 
personnel world to make sure we do not disadvantage anybody in 
those big civilian centers of excellence. The notion of 
centralizing the personnel world is a good notion because you 
save lots of time, lots of money. You save lots of manpower 
that you can apply to this PBD-720 loss of 40,000 people.
    Mr. Marshall. Right.
    General Moseley. And I don't believe there is going to be a 
whole lot of money that shows up on trees somewhere. So we have 
to look at a better way to spend the money and a more efficient 
way.
    Having said that, though, if we have taken a step that 
disadvantages the management of that great workforce and that 
intellectual capital, then we need to make sure we don't do 
that. And the notion of having the ability at those locations 
to manage that civilian workforce makes perfect sense.
    Secretary Wynne. Mr. Marshall, if I could comment once on 
the loss of industrial base in the aerospace industry--you 
commented on it a little bit differently by--we worry about the 
closing of the C-17 line because it is the only line that we 
have. We worry about the closing of an F-22 line because it is 
the only line we have there. And, you know, we are starting to 
get down to where we are signaling up on so many things in 
America----
    Mr. Marshall. Right.
    Secretary Wynne [continuing]. That it worries me.
    Mr. Marshall. Right. And I am totally with you.
    Secretary Wynne. Sir, the other part of that--let me 
parallel with my boss. When you look at the lines on the West 
Coast--that is Long Beach and Everett--when you look at the 
lines in the central part of the country--that is Wichita, St. 
Louis and Fort Worth--and when you look at the lines on the 
East Coast--that is Marietta--and so, depending on what systems 
go away, you could end up with only Marietta and Fort Worth.
    So you have no depth. You have no capacity. In the 
strategic airlifter world, that is Long Beach. And in the 
fighter world, that is Marietta and Fort Worth.
    So we are very, very sensitive to the aerospace industry. 
We spend a lot of time watching people worry about 
shipbuilding, but I see less people worried about the American 
aerospace industry, which is equally fragile.
    Mr. Marshall. I see my time has expired. I guess I will 
wait until the next round, Mr. Chairman.
    Thank you.
    The Chairman. And, General, I appreciate the comment about 
shipbuilding.
    Speaking for one of those champions of shipbuilding, the 
young lady from Tidewater, Virginia, Ms. Drake?
    Mrs. Drake. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being here.
    And, General, I would like to thank you for introducing the 
Air Force personnel seated behind you and telling us a little 
bit of their stories.
    And I know that this committee joins me in thanking you for 
your service. It truly does put a face on the war. And I know a 
lot of us would like to hear more of what you have done. And we 
know that is just a little bit that he said about you. So thank 
you for being here today and letting us thank you in person.
    My question deals with China's recent Anti-Satellite 
Missile Test. And my question is, how is the United States 
postured to reconstitute those vital space-based capabilities 
in the event either of on-orbit failures or attack by another 
country? And my concern is, do we really possess the necessary 
ground infrastructure to accommodate that reconstitution?
    Secretary Wynne. I think I can say to your question, ma'am, 
that the industrial base in space is fragile, as well as it is 
in aerospace. When I say ``aero'' and ``space,'' I really meant 
the fragility of both of those entities.
    That having been said, we are--and are putting into the 
budget--you will see it in the budget and you will see a little 
bit more on the unfunded requirement--that we are trying to 
figure out operational response of space. We are using four 
operationally responsive space--all the available launch 
facilities, if you will, that we have. And all of the 
manufacturers are trying to get involved.
    And we are starting that process by asking the question, 
not should we reconstitute that specific entity, but, in a 
wartime scenario, what do you need, specifically, to 
essentially restore peace and then to reconstitute whatever was 
destroyed during warfare, and no different than you might do in 
a civil society?
    So it is a little bit different approach to it. And what we 
find is that we--our approach toward reconstitution of the 
necessary forces drives us to an interesting set of studies. 
And we are conducting those studies over the course of this 
year.
    We have asked people--because, as you might imagine, we 
were shocked but not surprised at the Chinese development. The 
Chinese have been launching satellites into space. They didn't 
hit anything with the satellites that they were launching into 
space. This is because they have guidance systems. So it is not 
surprising. But it did, for us, remove that peculiar veil of 
sanctuary that we had given space just as if nothing would ever 
happen up there.
    And so we are working very hard. And in another forum, we 
could probably tell you a lot more.
    Mrs. Drake. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Okay.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson.
    Mr. Johnson. Thank you.
    And I want to thank all of our servicemen and women who 
maintain air superiority for this country. And it is something 
that we definitely have to maintain and enhance.
    And so with respect to the last question that was asked, I 
have a question. The space situational awareness, or SSA, is a 
top priority. Yet, for two key SSA programs--the space-based 
space surveillance and the space fence--the Air Force has 
requested $46 million less than expected in fiscal year 2008. 
Furthermore, funding of space-control technology, counter-space 
systems and SSA systems and operations comprise roughly $300 
million in fiscal year 2008.
    Is this funding adequate, given the overall investment in 
space and the growing threats to space?
    Secretary Wynne. Mr. Johnson, thank you very much for that 
question. The fact is that along with balancing all of the 
accounts, I think what you are going to find is we are borning 
in our studies right now and we are trying to figure out what 
constitutes the right kind of requirements that we need there.
    We also believe if you are going to have operationally 
responsive space and space-situation awareness, you are going 
to have to make sure that the technical maturity of the things 
that you have available is good. This is where Dr. Sega is 
taking us back to basics and trying to make sure that we spend 
the money on the right things at the right time.
    And I think, in that regard, we feel like we have 
adequately funded the 2008. That having been said, upon the 
launch of the Chinese Anti-Satellite, we have actually added 
some in the unfunded area to try to boost it up. But you have 
to watch out and you can't just throw money at engineers who 
don't have an answer for you. And so we are trying to balance 
the growth in that area.
    General Moseley. Sir, I think one takeaway is that space is 
not a sanctuary anymore. The launch of Sputnik in October 1957 
was a bit of a wakeup call for capabilities in space. This ASAT 
shot is an equal wakeup call relative to, ``This is not a 
sanctuary.''
    And it goes back to the congresswoman's question also. 
Space-situation awareness is critical to be able to see what is 
out there. Defensive counter-space is critical to be able to 
protect the assets on orbit. And that is the direction the 
secretary and Dr. Sega are taking to be able to maintain space 
surveillance and to be able to look at operationally responsive 
space to replace satellites, but also to look at defensive 
counter-space.
    But sir, somewhere in here will need to be a policy 
discussion on what is next because it won't be the United 
States Air Force that goes beyond the policy limits now on 
space-situation awareness and defensive counter-space. If there 
is a decision to move into offensive counter-space, that is a 
different issue. And that is not what you are asking, but that 
is the second and third-order question to space not being a 
sanctuary anymore.
    Mr. Johnson. Certainly. I believe it would be prudent for 
us to anticipate a changing environment in space. And we 
certainly need to have a superiority in space, as we do in 
aerospace. So that is a conversation that I am sure is----
    General Moseley. Yes, sir.
    Mr. Johnson [continuing]. Definitely coming.
    As threat to space and operations in space increase, so too 
will the need for a robust space-intelligence capability. How 
does the Air Force plan to address this requirement?
    General Moseley. Sir, we have done this in two ways. In 
fact, you are looking at one of the experts right here behind 
me, who is one of the space experts who has deployed into the 
theater. If you think back a few years ago, most of our space 
experts never let them out of those vaults and caves and they 
never saw the sunlight.
    We now have them deployed into the operations centers and 
we have had them deployed into operating alongside sailors and 
Marines and soldiers, with him being deployed in the Al Anbar 
province with the Marine Corps. So part of this is having the 
space experts out to bring that core competency out to others 
conducting operations.
    The other part of that is we have completely revamped Air 
Force intelligence with a complete refocus on operational 
issues within Air Force intelligence. So we have elevated the 
position--the top Intel officer to be a lieutenant general or a 
three-star. We are moving more intelligence officers into more 
senior positions now and being able to do the same thing with 
space.
    When I was fortunate enough to command out in the Arabian 
Gulf, I had two sets of space experts working for me. And those 
fellows now have been promoted into being general officers. And 
they are bringing theater expertise back to Colorado, as well 
as exporting Colorado expertise out to the theater. So we are 
pretty excited about this.
    I am personally excited because this has been one of my 
imperatives with these folks--to be able to get this expertise 
out of a vault somewhere and getting out where people are 
actually working. This is a good-news story.
    Mr. Johnson. Thank you. My time has expired.
    The Chairman. The chair recognizes the gentleman from North 
Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    General Moseley, Secretary Wynne, welcome. Thank you for 
putting the ``air'' in airborne and all the other good lifting 
things you do every day.
    We have got a $15 billion question mark with the combat 
search-and-rescue helicopter issue. We have got a PJ back 
there. I think that is really appropriate. And the A-10 drivers 
kind of put those two together.
    In light of what GAO has said, what is the plan? I mean, 
this is just one of many examples of equipment that we don't 
have that we need for our folks.
    And the third part of the question is, how many folks that 
are pilots were involved in that selection process. It has 
seemed time and time again to me there are far too many 
bureaucrats between the pilot and the acquisition folks.
    So if you could kind of give me a rundown on the three: 
where are we, when are we going to fix it, and how are we going 
to fix it?
    Secretary Wynne. I think you really have asked a great 
question because there are so few programs now that the 
industry--it is a vital concern to them to win everything that 
they can to stay alive. And it is no surprise to me that they 
protested. I will tell you that the number of protests are 
rising as the number of programs are diminishing. It is a true 
dogfight out there to make sure that you can be alive for, if 
you will, the next competition.
    We just don't do as many procurements as we used to do. 
Now, that having been said, the particular instance here--the 
GAO, I think, has found a technical application here. I think 
we can solve this pretty narrowly and I am hoping that we can 
see our way through this and avoid a lengthy delay in the 
procurement cycle so we can actually expend all of the 
resources that we have asked for in the 2008 timeframe.
    Mr. Hayes. General Moseley----
    Secretary Wynne. As to your question of whether or not we 
had requirements and actual operators in the offering, I am 
going to let Chief Moseley answer that question because I think 
he is more capable.
    Mr. Hayes. Thank you.
    And, Chief, as you answer that, talk to me about 
survivability of the Chinook in an extraction situation.
    General Moseley. Sir, the folks that developed the key 
performance parameters for the competition were combat-rescue 
guys. And so the KPPs that were developed that were then 
competed were actually combat-rescue guys living in that 
system.
    Remember, we have had a mix of combat-rescue guys. I have 
been of the opinion that combat search-and-rescue is a 
combatant Air Force issue, not a special-operations issue. So I 
moved combat rescue back into air-combat command. In this 
transition, we had some people that looked at the new 
helicopter as both an in-fill and ex-fill capability, as well 
as a combat-rescue capability. But there were pilots involved 
and there were combat-rescue folks involved.
    Sir, I will tell you, the H-60 that we have now is a 
limited airplane. It is limited because it can't hover very 
high. It is not very fast. But it can't carry very much either. 
And so when we have to go to the ranges that this PJ goes in 
Afghanistan and Iraq, we have got to download a PJ and put a 
fuel bladder in the back, which means you cannot carry a 
litter. And you are limited by the number of people.
    If this bomber pilot takes her crew out of that airplane 
and we send an airplane to go pick them up, that is not just a 
single C fighter pilot. That is a crew. We have got to be able 
to have an airplane that is big enough to pick up a variety of 
players because in this world that we are living in, combat 
search and rescue is a joint mission that the United States Air 
Force performs for the entire joint team. You have to be able 
to go distance and you have to be able to hover at high 
altitude and you have to have a survivable platform.
    So, sir, I am looking forward to getting on with the 
mission. I am looking forward to getting on with the decision 
so we can field a system that we can go out and pick people up, 
because I believe we are going to be in this business for a 
long time.
    And, sir, I will tell you, from my life out in Afghanistan 
and Iraq, one of my biggest worries sending people out to fight 
was that I couldn't go pick them up, because in this fight we 
are in, at the end of this, there will not be a POW return.
    There will not be a group of people repatriated. If they 
catch you, they will kill you. And so the ability to get the PJ 
to you and pick you up and get you home is a big deal. It is a 
very big deal, whether it is a Navy pilot or a crew or a Marine 
pilot or a crew or an Army or a special ops team--anybody out 
there, if they catch you, they will kill you.
    So combat search and rescue is a core competency for us. It 
is a mission area that we hold dear. The ``jolly green giants'' 
are very, very special people inside our combatant Air Force.
    So, sir, then, the question about the Chinook--the Chinook 
is a fine airplane. Our Army brothers and our special ops 
people are flying that airplane into some very, very dangerous 
places right now. I will not critique the airplane because it 
is a fine airplane. What my concern is now we have got yet 
another delay. I want to field this mission.
    Remember, we have accelerated this program five years and 
we have accelerated Block 10 two years inside that to be able 
to get this PJ something that we can go a distance and pick 
people up. So, sir, that is where I am.
    Mr. Hayes. Well, fix it right. Fix it quick. Make sure we 
do whatever we need to do to get the folks out there and get 
some new airplanes so we don't have to pick them up--anyway----
    General Moseley. Yes, sir.
    Mr. Hayes. Take care of it, will you?
    General Moseley. Yes, sir.
    Mr. Hayes. And Pope Air Force Base, while you are at it.
    General Moseley. Yes, sir.
    The Chairman. The chair recognizes the general from 
Pennsylvania, Admiral Sestak.
    Mr. Sestak. Thank you.
    I will follow up on that last question, Mr. Secretary. And 
thank you for your time.
    Just, actually, a yes-or-no answer, if you don't mind. Is 
the CH-47 the correct aircraft, then, for the CSAR mission?
    Secretary Wynne. I would have to answer it this way: It is 
the one that we selected. It is a subject of the GAO review. I 
think it has every chance of continuing to be selected. 
However, I would have to take all the details and talk to the 
GAO to make sure that we do not short shrift because your Air 
Force is into open and transparent competition. And we want to 
make sure that everybody considers that what we do is a level 
playing field. So we maximize the number of people to come 
forward to compete.
    And so I need to go and make sure I give the GAO complaint 
a full look.
    Mr. Sestak. Thanks, Mr. Secretary.
    General, in the transformation for the Air Force--and you 
know so much better than I do--but it is comprised of those key 
concepts from technology, concepts of ops and organization. 
Your AEF is your organizational way that you meant to address 
this new future that we are actually in in the global war on 
terror, in the insurgencies we do from Iraq to Abu Sayyaf and 
Djibouti--in the Philippines and then Djibouti. The AEF has 
been quite stretched. You have had to--had to, a couple of 
times, kind of reconfigure it or go on.
    Is it the right transformational, organizational concept 
for the future in view that you have had to go back and re-look 
at it. When, in a sense, this deliberativeness of it was, to 
some intention, expected to address these types of predations 
that have come up?
    General Moseley. Sir, it is good to see you again, from the 
time we spent together out in the Arabian Gulf.
    Let me answer yes. I believe the Air Expeditionary Force 
rotation scheme is the right way to do this because it provides 
some measure of predictability and some measure of being able 
to schedule a person's life.
    Mr. Sestak. Right.
    General Moseley. That is very, very key to us. We want to 
be able to publish a schedule that, depending on where the 
member is inside the wing that they are assigned to and inside 
that AEF schedule, that we can somehow try to stick to that. 
Nothing is perfect and we will never make it 100 percent. But 
we are very, very good. We are up over 90, 95 percent right now 
with providing that scheduling predictability so people can 
plan their lives.
    But, of course, in this war-fighting business, your 
opponent gets to pick. And sometimes they choose wisely and 
sometimes they make your life a little more difficult. And so 
right now, we have in excess of two AEFs deployed. And in some 
of our stressed areas, our combat-rescue helicopters, some of 
our ISR assets--in fact, the rivet joint has been out in excess 
of 6,000 straight days.
    And so when a combatant commander requests a rivet joint, 
there is only one wing of those--or like the AWACS or like the 
JSTARS that are down in Georgia. You only have one set of those 
machines. And so you are always out with those airplanes.
    Mr. Sestak. General, if that is the right organizational 
concept, and then you go down and you have the technology--
obviously, one thing you do very well is work with foreign 
nations, particularly this new global war of terror.
    When you look at programs like AFID, the Aviation Foreign 
Intelligence Defense, it is the only squadron you have in order 
to, so to speak, on the aircraft-to-aircraft level, to 
intermingle with those nations out there that might want to be 
able to know, ``How do we have an aircraft that can work well 
in a jungle? How do you do close air support? Are we doing a 
disservice by not placing more resources in this critical 
area?''
    General Moseley. Sir, great question. And, yes, we are 
planning to do that. As we look at the opportunity for the new 
Joint Cargo Aircraft--if you look back on the successes that we 
have had with the international program with the F-16 and the 
strategic partnering that we have developed and the 
partnerships over time, with pilots growing up and flying from 
Sheppard Air Force Base back to Norway, back to Red Flag, back 
to Norway, and then, the NATO construct--it is all about the 
same machine. It is those classic Air Force to Air Force 
relationships.
    So when we look at the Joint Strike Fighter, we see a new 
future with that. When we look at the Joint Cargo Aircraft, we 
see a new future with that. The C-130 gives us a future with 
that. We have some now operating C-17s, but that is not a big 
number.
    Mr. Sestak. But should more be placed into the kind of 
aircraft SOS has?
    General Moseley. Well, sir, we have also looked at the 
notion of a counter-insurgency airplane. We have looked into 
the notion of moving something that would be useful now for the 
new Iraqi air force, which we have offered up--they operate C-
130's now, three of our excess airplanes. So is there not some 
way to provide new capabilities to do exactly what you are 
saying?
    The commander of Air Force special ops command and the 
commander of special ops command and I are looking at, perhaps, 
moving out on a counter-insurgency airplane and then partnering 
much tighter with Joint Cargo Aircraft. So you have a COIN 
airplane, as well as a lifting airplane, that we can partner 
out there with a bigger number of countries.
    Mr. Sestak. Yes, sir. I might come back to that. But I 
probably have time for one last question.
    And Mr. Secretary--if I come back to it--but the question I 
really had is, should there be more of these squadrons that 
have the old cubs or whatever it is that actually work with you 
and turning these different aircraft? Mr. Secretary, my 
question is overarching. And one organization, Congressional 
Budget--was that the gavel?
    Got it.
    The Chairman. General, he can come back a moment later.
    Did I understand you said a moment ago that you have excess 
C-130's?
    General Moseley. Sir, these were the C-130Es that, as we 
moved them from active units and replaced them with Js, that we 
had three airplanes that had life on them that aren't too broke 
that we provided to the Iraqi air force to provide their 
airlift. We provided the pilots and we trained them at Little 
Rock. And so we funded that under our excess-aircraft model, 
which is not an FMS case. So that is where the three C-130Es 
came from for the Iraqi air force.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Moseley, thanks for being here.
    Secretary Wynne, I appreciate it.
    Also, I want to add my thanks to the warriors behind you 
who you brought in this morning--nice touch to do that.
    Also, Secretary Wynne, I want to add my concern that all 
procurement be done openly and fairly and transparently, and, 
particularly, this combat-search-and-rescue aircraft that you 
have talked about--looking forward to an aggressive review by 
you in response to the GAO.
    But it is one thing for Sikorsky and Lockheed to protest 
as--you would expect that. But to have what would appear to be 
a disinterested party agree with them and say there are some 
things wrong with the process itself--and I understand your 
concern that it slows things down and all those kinds of 
things--but having the system work helps us back up the 
decisions made by the system, if that makes any sense.
    General, back on the overall management of the 300-plane 
fleet, are you aware of any kind of a commercial circumstance 
where fleet managers said, ``You have got to manage the fleet. 
You have got to do these kinds of missions and that management 
has to involve you not doing away with any of the aircraft''? 
Does that happen anywhere else besides in the Air Force where 
your hands are tied that way?
    General Moseley. Sir, I am not aware of anything.
    Mr. Conaway. It doesn't make a lot of sense to me that you 
would be required--and I know we are part of the way that 
works, and I understand the reasons why that gets in there, but 
it seems to me that that is a flawed tactic if we are in an 
arena of limited resources.
    Can you provide for us what that costs in doing that? In 
other words, you have run a model that said, ``If I had free 
will choice to do the job you tell me to do, I want to have 
these planes and have these missions available and to line them 
up the way you said and to cut the ones''--can you provide for 
us----
    General Moseley. Yes, sir.
    Mr. Conaway [continuing]. What the costs to the system is 
if we would otherwise put those dollars somewhere else. Would 
you do that for us?
    General Moseley. Yes, sir.
    Sir, I would ask you in the hearings with General 
Schoomaker and Admiral Mullen ask them, because if they have 
equal restrictions on managing their inventories, I don't know 
of it.
    Mr. Conaway. It is not likely they have that same kind of a 
circumstance, and I understand that C-5s are built in certain 
places and we have got all this infrastructure out there that 
we need to do, but at the end of the day, we are all tasked 
with protecting this country with limited resources to get that 
done.
    So I appreciate your service to our country. A constituent 
friend of mine, I think a college chum of yours, David Mims, 
harasses me every day that I see him about making sure you are 
doing a good job, and so I told him I would grill you pretty 
good this morning.
    General Moseley. Thank you, sir. That is helpful.
    Mr. Conaway. Which I don't think I have done.
    General Moseley. Yes, sir.
    Mr. Conaway. But thank you for your service, and I do look 
forward to the response to the GAO report on that procurement 
issue, because given the four years, five years we have dealt 
with the tanker thing, and I am not trying to say they are the 
same, but it is of great importance to us that we get the 
system work, whatever the answer it is.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thanks very much.
    Ms. Castor.
    Ms. Castor. Good morning, Mr. Secretary and General, and a 
special thank you to the brave and talented men and women that 
you have brought from the Air Force here today.
    I am privileged to represent the Tampa Bay area, which is 
home of MacDill Air Force Base. In addition to Central Command 
and Special Operations Command, we also have the air refueling 
wing.
    So all of the questions that have been asked on the tanker 
program and KC-X, I would appreciate, as Mr. Marshal has 
requested, a briefing in my office on the--I am new. I would 
like a briefing on the history of the procurement and 
development process, a specific timeline moving forward, 
especially to ensure that we are promoting fair and open 
competition and expending the taxpayer dollar in the most 
efficient way.
    General Moseley. Yes, ma'am.
    Ms. Castor. Next, I would like to go to your testimony 
adapting to non-traditional roles. I am very concerned with a 
portion of your testimony and the fact that airmen and women 
have stepped into fill joint war-fighter tasking and stressed 
skill areas in which other services are shorthanded.
    It said the Air Force currently provides over 7,700 airmen 
and women to fulfill these in lieu of ground force tasking. 
Airmen and women fulfill in lieu of requirements in such areas 
as detainee operations, convoy operations and protection, 
explosive ordnance disposal, et cetera, et cetera, you have a 
long list here. And you say that the Air Force also fills 
another 1,200 join individual augmentee positions.
    What is the most consequential impact to the Air Force 
because of this? And tie it to your budget request to where are 
we going to see that impact?
    Secretary Wynne. I can give you a specific instance of two 
missile technicians coming out of the northern tier states that 
are interrogators because they speak Arabic. They are not now 
missile technicians, they are interrogators, because they were 
asked for and assigned.
    When they joined the Air Force, we appreciated their 
intelligence and made them missile technicians. They are not 
that anymore. If we were wrong and had excess, to the 
chairman's point, excess missile technicians, it would surprise 
me. We have a specific request for TO&E and we ask for them.
    When we get them back, which they will come back to us, we 
will have to retrain them into the missile technician field, 
because they will not be as prepared.
    So even though you say we have 7,700, roughly, people, that 
actually means we have at least double, because you have to 
have some downtime to prepare and some downtime following.
    So we look at between 17,000 and 21,000 as the number of 
people we have involved in this exercise.
    Now, that having been said, as I come down 40,000 in order 
to make sure in order to make sure I can recapitalize my force 
structure, this concerns me. It concerns me because it is 
growing, it is not shrinking. It was forecast to be shrinking 
about this time, yet it is actually growing.
    To your point, we don't guard prisoners. The Air Force 
doesn't guard prisoners; we don't have prisoners. The Army 
guards prisoners. For us to have prison guards at Camp Bucca is 
an anomaly for us. We are very proud of the people who are 
doing it, by the way. I mean, they are doing magnificently. 
They bring different things.
    It has caused us to change our training regimen. We now 
have emergency medical training, we have rifle training, we 
have things that we did not have. We have convoy training. We 
are the only service that has convoy training, because we felt 
like if we were going to make our people convoy drivers who 
used to be snowplow operators, they are going to get trained. 
So this is where we are coming from.
    Chief, do you have a comment?
    General Moseley. As we have looked at the total number of 
folks that have done this, we have asked for a scrub to see 
what we have been asked to do with our people and are the 
people doing something that is relative to their original 
training. About a little over 80 percent of the folks that we 
have done this with have done something relative to their 
training or within their competency.
    We have had to refine that a bit or we have had to help 
them a bit, but for the most part, they are in something that 
looks like what they have been trained to do in the Air Force. 
We have just taken that to a different level.
    But, ma'am, the part that concerns me alongside the 
secretary is that 25 percent or so that is not within their 
core training. We have done this for the right reasons. We have 
done this because we are a military at war, and the land 
component is stressed, and the land component has asked for 
assistance from the Navy and the Air Force in doing this, so it 
is the right thing to do.
    But as the mobilization policies now allow the chief and 
the secretary of the Army to be able to get at its guard and 
reserve in a bit different way, I anticipate this non-core 
competency number coming down for us.
    Ms. Castor. And the Army chief of staff has--may I continue 
for a moment?
    The Chairman. You can come back.
    Ms. Castor. Thank you.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    One of the benefits of being the last person is I have got 
to hear everything that has been discussed in the previous 
questions.
    And, gentlemen, and thanking you for your service, and I 
must say that so far the only good news that I have heard is 
the introduction of the incredible Air Force personnel that you 
have behind you and their individual accomplishments and 
contributions.
    You have painted a picture that is very dire. The space no 
longer a sanctuary, loss of the aerospace industrial base, the 
recapitalization being a significant gash into the overall 
personnel that you have, which, of course, with your concerns 
of the loss of intellectual capital, and of course I see that 
as a potential loss for ingenuity, the concern that you have in 
your overall competitiveness and the equipment that you are 
seeking and that you see as next generation.
    It is interesting, as you two gentlemen paint this picture, 
I do think that there is not a sense, specifically in Congress, 
of the Air Force waving the flag of concerns of its situation.
    General Moseley, I told you before that I think that the 
Air Force budget hearing is one of the least attended hearings 
that we have in HASC. The number of people that believe that 
there is an emergency or of a grave concern for the Air Force 
on this committee or in Congress is probably fairly low. And I 
would think that the Air Force could do a better job in waving 
its flag of, ``We have serious concerns that need to be 
addressed.''
    Secretary Gates, when he was here, I had asked him about 
the recapitalization plan and my concern, which you guys have 
shared, of the 40,000 personnel that are to be cut and whether 
or not that that needed to be reviewed. And he indicated that 
as a result of the additions to the Army and Marine Corps, that 
it may cause the reconsideration for the Air Force.
    General Moseley, you have indicated, of course, that with 
the flight time dropping that you believe that that may be too 
far.
    Secretary Wynne, I don't want to diminish the concern that 
this is a self-inflicted wound in looking at your concern of 
whether or not you would receive your top line increases that 
you had wanted in equipment, but I must ask, I am very 
concerned that the recapitalization is going to occur at the 
ability of the Air Force to advance or function.
    And you began your presentation by indicating that you are 
an Air Force at war. You stated some concerns, but I am very 
concerned that if the recapitalization with the force shaping 
plan goes forward, that what we might have is an Air Force that 
is unable to go to be our advantage on the battlefields of 
tomorrow. And I would like your further comments.
    Secretary Wynne. Well, as the Army is seeking a mine-
resistant vehicle because the Humvee did not work, we want a 
fifth generation fighter, we want the right kind of modern 
tanker, we want the right kind of modern ISR equipment, and we 
want the right kind of lift capacity to make sure we can fight 
also a modern war against a different future enemy.
    I think that the capabilities that we have to fight the war 
today gave us a huge complement. I mean, I would say that our 
ability to contain air dominance is well known throughout the 
world. What we are wanting to make sure is, and as I say, it is 
the duty of every airman to make sure that the next generation 
airman feels that same confidence and that same capability, and 
that is where we are headed.
    I would tell you just in the area of your concern, pushing 
things into the laboratory and making sure that we right the 
laboratory capabilities so that Wright-Patterson becomes again 
the technical center of aerospace in America. I want that, and 
I will tell you General Bowlds is doing a great job.
    And with your support, sir, I think we can get there. It is 
a concern of mine, though, as to how do we fit all of this into 
the package. And as General Moseley said, it was a pretty good 
battle. It took a lot of time to try to figure out how to 
squirt all this out.
    General Moseley. Sir, as you look at these people, one of 
our blessings is we have the sharpest, smartest, most 
adaptable, agile people in any military. One of our curses is 
they make this look so easy people think it is easy. This is 
not easy.
    And the recapitalization of this Air Force is a fundamental 
issue right now in this discussion that we are having over 
budget. Do we want to be the global Air Force that I think you 
ask us to be or do we want to be something else? Because we 
make this look so easy, people believe it is. That is a 
challenge.
    The Chairman. I thank the gentleman.
    I might say to Ms. Castor and to others that we will have a 
second round, so if you have other questions, please stay.
    Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you both for coming.
    I appreciate your hospitality at the Pentagon a couple 
weeks ago, but I have got to tell you when I walked out and got 
on the bus I think the captain, and I hope I got that rank 
right, had to help me pick my jaw up off the concrete before I 
could get on the bus. Because I walked out of there thinking 
that I came into this job two months thinking that we were the 
best equipped and most advanced, and I walked out of there now 
having concerns that you are expressing again today.
    My question is that we had a small debate last week for 
about three days at the end of the week that got a little 
attention across this country and across the world, and a lot 
of that debate was about the message we were sending to our 
troops and the message we were sending to our enemy.
    And I can't help but sit here and think that hearing what 
we are hearing today, and I assume there are reporters here and 
they hear that wings are falling off and that we can't fly our 
planes at Mach 2 or whatever it was, that we have to fly them 
slower than what they were designed for.
    I don't have any feelings that we won't hear doom and gloom 
from the Army, the Marines, the Navy, that they are short on 
equipment, like you said, Mr. Secretary. What message, in your 
opinion, are we sending to our troops? And like you said, they 
will stand up and they will do their job and they will fly in 
there and flap their wings if they have to, I know that, to fly 
and do their mission, but what message are we sending to our 
enemy, and what message are we sending to our troops in this 
type format when we don't supply them the best and most modern 
equipment available to us?
    Secretary Wynne. Well, there is no doubt in our minds, sir, 
when the North Koreans wake up in the morning they are not 
worried about an invasion; they are worried about the United 
States Air Force. When the Chinese think about how to fight the 
Taiwan Straits, they are worried about the strategic Navy and 
the United States Air Force.
    In the same way, I think we deserve to make sure that our 
people can fight the fight that you ask of us, and right now I 
would tell you that I think we are prepared to do that.
    In World War II, by the way, the bravery of our airmen took 
on an air force that was superior to theirs, and we lost a lot 
of great airmen bombing Ploesti, bombing Berlin, bombing Tokyo. 
Doolittle signed up phenomenal people that went to the Tokyo 
raid.
    So our message to our airmen is, ``We believe in you, and 
we are going to support you to the maximum extent possible, and 
we have a duty to future airmen to make sure that they are as 
confident and as capable as you are.'' And that is our message.
    And to the bad guys, ``We will bring the fight to you.''
    Mr. Ellsworth. And just as a follow up, I guess I would 
say, what message is Congress sending by putting the boomer in 
a 45-year-old plane? Are we not sending that same message that 
we aren't supporting--you know, we can pass a resolution that 
says, ``We support you.''
    The proofs in the pudding, and I am putting you in a plane 
that is not safe, we can't fly at the speed it is designed and 
it is 45 years old, unless you tell me that that is a great 
plane, it is still good. Then we are sending the wrong message 
that way, Congress--I am not talking about you, I am talking 
about us sending the wrong message to our troops and to the 
enemy by not backing you. We are on the same playing field 
here. I am talking about we need to step up and do our duty. 
Put up or shut up.
    Thank you.
    The Chairman. I thank the gentleman.
    Before I call on Mr. Wilson, I am concerned about this same 
area of readiness.
    I understand while I had to step away that you did discuss 
readiness, but I think it was also testimony that there is a 10 
percent reduction in flying hours, and then, General, I think 
you said, ``We are as low as we can go.''
    Aren't these terrible risks when you cut flying hours that 
much? Are we going to find ourselves engaged in combat, not 
quite as capable as we were a year ago?
    General Moseley. Sir, 10 percent is a manageable cut, but 
my concern is that we don't get on to a habit pattern of 
continuing to raid the O&M accounts and the flying hour 
accounts. We have done about everything we can do to protect 
the investment accounts, to include taking more risk in the O&M 
account and in the depot account. We are about there now where 
I am not comfortable with any more risk.
    Sir, I will tell you, some of the older pieces of our 
inventory, you couldn't generate those sorties anyway because 
the airplanes are getting old and they are breaking. So you 
couldn't generate those UTE rates in those squadrons.
    The Chairman. What about additional use of simulators; is 
that helpful?
    General Moseley. Sir, it is to a point. We discussed this 
before. I started flying airplanes when I was 14, so maybe I am 
a dinosaur about this, but there are certain things you can do 
in a simulator that are just that, you are simulating 
activities or procedural trainers. You have to be able to fly 
the airplane, you have to be able to understand the inherent 
dangers of aviation, and you have to be able to train at 
composite force levels. Now, the new simulators are wonderful, 
but they are adjuncts to procedural trainers. You have to be 
able to fly.
    In the abstract, people say, ``Well, you could just do most 
of this in the simulators and then only fly when you really 
have to.''
    Sir, that is a loser argument.
    The Chairman. Let me point out that the B-2 pilots at 
Whiteman Air Force Base do a great deal of time not in the B-2 
but in the trainers----
    General Moseley. Correct.
    The Chairman [continuing]. T-38s.
    General Moseley. That is right, sir. And that is to get 
them airborne, to get them flying.
    The procedural trainer that we have at Whiteman with the 
509th is a great bomber simulator, but you still have to get 
them into the bomber and get them into exercises. And when you 
can't do that, you have to get them airborne.
    Because, sir, you know from living there and watching us, 
this aviation stuff is inherently dangerous.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    General, thank you, and thank you for bringing your warrior 
colleagues with you too.
    I am a 31-year veteran of the Army National Guard, and I 
appreciate your comments earlier about the Air National Guard 
and the competence and capabilities. I know Guard members are 
just very, very proud of their service in the global war on 
terrorism.
    Additionally, my background, I am very honored that my dad 
served in the 14th Air Force, the Flying Tigers, during World 
War II in China, and three years ago, I had the opportunity to 
visit with President Jiang Zemin in Beijing. And for you and 
your colleagues, I want you to know, you may not be appreciated 
as much today, but, indeed, President Zemin pointed out that 
the American military is revered in China for their efforts to 
provide for their liberation in World War II.
    Additionally, I am grateful that I have a nephew that I 
visited in Baghdad last year. He is currently in Alaska. I am 
very proud of his service in the Air Force.
    It has been asked earlier by a number of people about the 
CSAR RFP. I have a specific concern and that is, with all the 
other good questions, in the key performance parameters, one of 
the indicators that was not included was the terminal area of 
survivability. And I would just urge if there is an amendment, 
that that be looked at. And you have answered that, indeed, 
that pilots that have familiarity are participating in the 
process, and so I hope that proceeds.
    Additionally, in your statement, you mentioned that the Air 
Force is exploring the concept of time-certain development, 
which would deliver an initial capability to the war-fighter in 
an explicitly specified much shorter interval. In the past, 
schedule-driven has had problems.
    Do you see where this can be beneficial, Mr. Secretary?
    Secretary Wynne. Well, sir, I have the benefit of some 
history, and that is that on the F-16 program, they actually 
gave us not only a time-certain development of 36 months but 
also a specific amount of money that the corporation, if they 
overran it, had to put in their own. It was a head-to-head 
competition between, if you recall, the YF-17 and the F-16.
    At the end of the day, also the Joint Strike Fighter was 
done on a relatively tight time schedule, at least in the 
concept development.
    We think that time-certain development actually stimulates 
the engineering talent in America and creates problem-solving 
teams that would otherwise be kicked downstream. We also will 
tell you that a time-certain development essentially puts the--
you have got to put the requirements on the table and you have 
got to stand aside and let the engineers develop.
    So I do see and have participated a little bit in a 
beneficial event.
    That having been said, yes, you cannot sacrifice schedule 
for quality; it is a balance.
    Mr. Wilson. And in conclusion of my question, I appreciate 
so much Congressman Turner pointing out his concerns, but I 
appreciate, too, that you have indicated the American Air Force 
is equipped and prepared to face any challenges to our 
citizens, and that is your view.
    Secretary Wynne. Yes, sir.
    Mr. Wilson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, General Moseley and Secretary Wynne, I bring you 
greetings from Seymour Johnson Air Force Base in Goldsboro, 
North Carolina, and we appreciate the Air Force in eastern 
North Carolina.
    As I have listened to--and that is the advantage of being 
the last one--to so many excellent questions about budget and 
where you are today and the things that you have got to do to 
remain strong, I want to ask you and look a little bit further, 
like 10 years out, that if we are having to make these 
decisions now--and I heard your comment, Secretary Wynne, and I 
would agree.
    I mean, there is not a nation in this world that does not 
respect and know that we have the strongest air force, I don't 
think there is any question, but when I look at the financial 
shape of this country and it is getting--and according to David 
Walker, who has spoken to this committee, it is getting really 
tighter and tighter. And if we continue to--let's say we are in 
Iraq five more years, I hope to God we are not, but let's say 
we are, and we have to keep spending roughly $250 million a day 
in Iraq.
    I know what you are saying but my question is this: China, 
we have a trade deficit with China that is somewhere around 
$400 billion. I mean, we are sending jobs there, we are sending 
American dollars there, they are putting it in their military.
    When you are here before this committee saying, ``Well, we 
are going to have to readjust here, readjust there,'' my 
question to both of you is, today we are, but 10 years from 
now--and I probably won't be in Congress 10 years from now, but 
there will be somebody else--10 years from now, if we are still 
having to have these debates and discussions that we have got 
to be more frugal with the dollar because we don't have many 
dollars, if that should happen, I am not saying it is going to, 
but if it should, where is China today with their air force?
    Where will it be 10 years from now with their air force if 
we, in this country, have to continue to tighten the belt and 
cut back on our Air Force?
    Secretary Wynne. Well, sir, let me start by saying, I had 
the very good privilege of being at Seymour Johnson Air Force 
Base and watching the 96 Eagles line up, and it is an awesome, 
awesome sight. I also had the great opportunity to interact 
with the citizens of Goldsboro who support that base, and it 
was inspiring.
    And I want to thank you because I know you know that 
Seymour Johnson was the source for the 21 airplane salute over 
President Ford's funeral, and that great tanker squadron, the 
Reserve squadron there, as well as the active duty squadron 
interacted terrifically to make that look seamless and flawless 
and easy, just like we talked to Congressman Turner's question. 
Sometimes the Air Force makes things look very easy.
    And we actually captured a film on You Tube that we use at 
the Air Force Association that citizens around Grand Rapids 
took and filmed, but we can never find out who did it. But they 
put it up on You Tube and it was Taps with a 21-airplane salute 
into the flag. It was awesome. And so I use it as the Air Force 
Association as a dessert after I have bored them with my 
speech.
    Mr. Jones. Thank you, sir.
    Secretary Wynne. I will tell you that I do worry about the 
concern that you have expressed. As they did in the ASAT test, 
the Chinese are becoming awesome investors. They are focused, 
they are deliberate, and they are working the problem very 
hard. I would say that over the next 10-year period, we need to 
work with them, if you will, to bring them in in a manageable 
way, because I would not like to be their opponent.
    What I would like to be is I would like to be, if you 
would, their world partner in managing them into the world, and 
that is really our stroke. And it is going to be a carrot and 
stick, and I think one of the things that you are emphasizing 
is we have got to be careful that the stick doesn't look too 
weak.
    Mr. Jones. Yes, sir. Thank you.
    General Moseley. Congressman Jones, their air force is a 
good air force. They feel that a new fighter that they have got 
in squadron strength, they are co-producing fourth generation 
systems that are designed in Russia. They are extending the 
range on their bombers, they are building new tankers, they are 
building new AWACS, they are watching us, what we have done for 
the last 16 years, and they are doing the same thing.
    Sir, I will tell you, it may be a time for a discussion 
about percentage of GDP on defense budgets. That is not going 
to be my lane to make that call, but when you talk about the 
challenges that you are addressing, we are sitting right now 
with the lowest percentage of GDP since we have been fighting 
wars, for sure since World War II, let me say it that way.
    So I offer to you that this country can afford the best Air 
Force, this country can afford the best Army and the best Navy 
and the best Marine Corps. And so it is based on what you want 
us to do, and it is based on how do we buy ourselves out of a 
procurement holiday that has taken us to an average age of 25 
years on this inventory.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Chairman, during the first round of questioning, I was 
inquiring about cost savings. In the first round of 
questioning, we explored the current policy, which is in U.S., 
which doesn't permit the Air Force to retire certain airplanes 
that they would like to retire, and we found out that it costs 
us about $1.7 billion a year to keep those airplanes sitting on 
the ground. And I know that you had to step out during that 
time, but I just wanted to mention it again, because I think it 
is extremely important.
    There is another cost savings set of exercises under way 
initiated by the Base Realignment and Closure Commission 
actions in 2005. And one of the concepts embodied in those 
recommendations is joint basing.
    Actually, I became involved in joint basing two years 
before BRAC did. I went to visit Phil Grone and I said to him, 
``Look, the three bases that are contiguous in my district, 
McGuire Air Force Base, Navy Lakehurst and Fort Dix Army Base, 
are three pieces of real estate that sit right next to each 
other, and when I visit each of the bases I see a set of 
activities at McGuire and a set of activities at Lakehurst that 
are the same as the set of activities at McGuire and another 
set of activities at Fort Dix that are pretty much the same as 
the sets of activities that I saw at the Air Force base and the 
Navy base.''
    And so I said, ``Why don't we try to create a concept where 
people can share assets and services can share services and 
save the taxpayers money and give us money to divert to other 
things that are meaningful in terms of our national security?'' 
And that, I believe, is how jointness got started.
    The 2005 recommendations came out, the jointness 
recommendations were involved with my bases at McGuire, Fort 
Dix and Lakehurst as well as Fort Lewis and other bases around 
the country. That process is ongoing and inching forward.
    Now, I know that there are a lot of important questions to 
discuss and a lot of important decisions to be made. Two of the 
most important, which are currently under discussion, and I am 
interested in getting your perspectives, are whether or not 
land should be transferred from one service to another, that is 
number one, and number two is, how we can protect and maintain 
the proper quality of life issues between and among the 
services.
    I think those are two really important questions that are 
slowing the process down. And I am not in a position to make 
the decisions, but I would sure like to think I am in a 
position to encourage all the services to make these decisions.
    So I would be interested in your perspectives on those.
    Secretary Wynne. Well, thank you, sir.
    When joint basing started, it was in fact to avoid 
duplication in the procurement of services and avoid 
duplication in the performance of administrative duties. It has 
gone beyond that, and it has gone in a direction that, frankly, 
our Air Force doesn't like.
    First, our Air Force actually fights from the bases that it 
occupies. This is our place. Whiteman Air Force Base is the 
place that we take off from. McCord Air Force Base is a place 
that we take off from. We want to make sure that our quality of 
life for our people are very well developed.
    My approach to joint basing is real simple: I want joint 
basing to be a raging success. In becoming a raging success, I 
want to make sure that it adheres to the highest standards for 
quality of life for all of the individuals that are attracted 
to that base. If another service has a lower set of standards 
and I can raise those at this particular joint base, then their 
people will be delighted as customers to come to that joint 
base. This is what I think joint basing should be, because it 
will draw high performers and it will draw a success story.
    I do not believe that we should transfer land, I do not 
believe that we should transfer assets, I do not believe in the 
landlord concept of accomplishing this thing. I don't think 
that is what we set out to do in the first place. This was more 
of a trial and pilot to try to drive efficiencies into the 
system. So I am pretty concerned about this.
    General Moseley. Congressman, please let us, for the 
record, provide you the matrix that we asked our judge advocate 
generals to create for us that shows when you transfer the 
property what legal authorities transfer with that as the 
commander of the oversight authority for the installation. It 
is a staggering list of things that goes down to even include 
response for Freedom of Information Act by citizens in the 
vicinity.
    So please let us provide that for the record, and I will 
echo with my boss, same.
    Mr. Saxton. Thank you. I look forward to receiving that.
    The Chairman. Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    And thank you to both of you for being here. I was able to 
hear your testimony, although I had to leave for most of the 
questions for some other committee responsibilities. But I 
appreciate your being here and especially bringing the young 
people who are so outstanding to our country. It was good to 
hear their background and all of their accomplishments.
    Thank you all.
    I am not sure whether this particular question was asked 
but I wanted you to just help us out a little bit with some of 
the ``in lieu of'' jobs that have impacted the training of 
traditional Air Force pilots.
    I am not sure if you addressed that, but we know that 
certainly many of our airmen have been asked to take on some 
responsibilities that perhaps they were not specifically 
trained for, and I am wondering if you could discuss that and 
has that impacted readiness out of all and their ability to 
continue to be as sharp as possible in the fields in which they 
actually did train for?
    Secretary Wynne. Thank you very much.
    I would say this way: We believe that when the Army is 
stressed and when the Army requests under duress, we should be 
supportive. We try very hard not to let it affect our pilot 
community. It does affect our maintenance, our support and our 
administrative and especially our security forces that are, if 
you will, a lot more like Army.
    But when you get to the point, as we look at this, where we 
are trying to buy armored security vehicles and the Army is 
trying to buy fixed-wing aircraft, you have got to wonder, what 
is going on here? And I would say to you, what is going on here 
is we think that with the increase and reset of the Army ground 
forces and the Marine ground forces, we need a reevaluation to 
make sure that we are applying and requesting the taskings in 
the right way.
    It does affect our training. We lose these people, they are 
not doing the job that we have asked them to do for at minimum 
the time that they spend on the ground. But what is hidden, 
just like it is hidden in the Army, is the training is spent up 
and then the retraining of the opportunity after that. So we do 
not get our airmen back. So even though we say we have about 
7,500 that are currently involved, you think about it and it is 
about 21,000 for the spent up, for the actual performance and 
the spend down.
    Chief?
    General Moseley. Ma'am, one of the numbers we talked about 
a while ago was about a little over 80 percent of the tasking 
that we have under this in lieu of tasking business is 
something that looks like a core competency of the Air Force. 
So a little over 80 percent of the people that do this are 
doing something that they actually have trained for in some 
fashion in the Air Force.
    So it is not as bleak as you think. The problem is the 20 
or 25 percent that are not. And we send them out to do 
something that is not a core competency for the Air Force.
    The secretary mentioned a bit ago guarding prisoners. The 
Air Force doesn't have a prison. The Navy and the Army have 
prisons. We almost never have one in prison. So we don't have a 
competency of prison guards, so we have to take someone and 
train them to do that.
    But I will tell you, ma'am, the country is at war, and the 
American military is at war, and the Army is stressed. And so 
the things that we can do to partner with them really, really 
matter. And the things that we can do to help really, really 
matter.
    This growth that we are going to see and this expansion 
that we are going to see in brigade combat teams and the 
ability for the Army to mobilize a bigger portion of its guard 
and reserve should minimize these out-of-competency taskings 
for the Air Force. We are going through that process right now 
to see about going to zero on the taskings that are outside of 
our competency. But the ability to partner and the ability to 
fight this war on a global scale, that is a big deal for all of 
us.
    Ms. Davis of California. Thank you.
    And in terms of the leadership, are you more likely to lose 
some of your mid-level leadership as we proceed in this way? Is 
that a worry?
    General Moseley. Ma'am, right now, our retention numbers 
are higher than they have ever been, but you are asking the 
right question. If you continue to send people to do things 
that they did not sign up to do or is outside of their 
competency, you can bet we will see impacts on that with 
retention.
    Secretary Wynne. It is the old, ``Once is an adventure, 
twice is a job.''
    Ms. Davis of California. Thank you very much.
    Thank you very much.
    General Moseley. Ma'am, can I follow up, though? These 
people are incredibly brave, and they are out there doing 
things that they didn't sign up to do, and they are out there 
doing this very, very well. Because we hold the standard so 
high on training of the Air Force, we hold our recruiting 
standards so high, these are very valuable people to be out 
there doing that. I am proud of every one of them that we have 
sent out there.
    Secretary Wynne. Absolutely.
    Ms. Davis of California. Thank you.
    The Chairman. I thank the gentlelady.
    Mr. Turner.
    Mr. Turner. Thank you.
    Mr. Secretary, to get back to the recapitalization issue, I 
have no question concerning your need for equipment and 
modernization. Of course, my concern, as I expressed it, was 
that doing that at the cost of cuts in personnel may have a 
result of risk of future consequences.
    And my point that I want to just leave with you as I go to 
other questions is that I don't think that we have had a real 
clear picture given to us of what those costs could be of those 
future consequences of choosing this tradeoff.
    General, you had said about the Air Force making it look 
easy. If you tell us that you are going to look for 
efficiencies, everybody is for efficiencies, but if you paint a 
picture of what the actual risk of future consequences are, we 
have a greater understanding of what is occurring and then a 
greater ability to respond to your needs.
    One other comment on statements that you have made 
concerning the loss of the aerospace industrial base. As you 
know, General, it has been an issue that you and I have 
discussed before.
    Mr. Secretary, I would greatly appreciate if you would 
adamantly communicate with the Commerce Department your 
concerns and issues, because I don't think our Commerce 
Department has as great of a concern as they have opportunities 
for trade that can support our aerospace industry. They do not 
see them as important.
    And, certainly, we cannot just support the industry by 
appropriations with the military side. It also takes a robust 
economy and a robust trade. I think hearing the opinion of you 
two gentlemen in Commerce could help them as they have issues 
that they could advance to support the aerospace industry.
    And, General, I wanted to thank you for--General Deptula 
has been a great deal of help to me on the issues of NACIC and 
DAI and the issues of overlap or permanent responsibility 
assignment discussions. I have a great deal of concern, as you 
may be aware.
    NACIC is a jewel that has performed well, and as we look to 
the future, we are not going to have a lessening need for 
intelligence, and I am greatly concerned that territorial 
battles might weaken our overall ability on the intel side. I 
know that your elevation of the deputy chief of staff for 
intelligence that might be certainly a sign of your agreement 
that this is an area of our need to protect those assets and to 
grow them.
    And I just would like your thoughts from the two of you 
concerning intel in Air Force's areas and where you might see 
that there are concerns of overlap and diminishing the Air 
Force capabilities?
    Secretary Wynne. Well, one of the things that we are trying 
to do, even with this remote operated visual enhanced received, 
the ROVER system, is to actually diffuse intelligence right 
down to the tactical commander, whether he is in a combined air 
operation center or in an airplane or right on the ground as 
the tactical ground commander. So we are actually trying to 
make sure that intelligence is, firstly, boldly fused and 
driven down to the tactical level.
    Having General Deptula, by the way, who is a real smart 
fellow, helps us because he now can interface with what is 
available, what should not be, what needs analysis and what 
does not need analysis, how to protect that information as it 
goes to that tactical area. So we are benefiting dramatically 
from all of the aspects of intelligence, but one of the things 
is just to focus.
    It is just as you said, focusing on it, just like where now 
we are focusing on cyberspace. We are focusing on cyberspace, 
it feeds intelligence, intelligence feeds cyberspace. We are 
truly benefiting and we are blessed with the people we have in 
there.
    General Moseley. Sir, having been in the building when it 
was hit on 9/11 and then having read the 9/11 Commission 
report, I concluded that our intelligence system could use a 
little rework inside the Air Force.
    So when I became the chief, that was one of the first 
things that I did was hold an intel summit and decide to move a 
lieutenant general to be in charge of Air Force intelligence 
and allow that person then to streamline all of the functions 
inside the Air Force to be able to protect the intellectual 
capital of things like NACIC and to be able to protect where we 
are and to be able then to allow those people to grow into 
different areas.
    So you take the person and grow the person as fast as you 
can, but you set the institution up to deal with this new 
global threat that is completely different than when I started 
this 30-something years ago.
    And the way to get at that is to have the right set of 
tools with the right set of intellectual capital and the right 
set of creativity inside that intelligence system to be able to 
deal equally with land component, maritime, special ops and the 
interagency. So it is not just inside the Air Force; it is the 
ballooning of opportunity out there and the ability to 
interface and share.
    I think we are doing a better job with this, and I think 
this template is going to pay big benefits for us.
    Mr. Turner. Good.
    General Moseley. I know it will for the people, which for a 
chief that is a critical piece, to take care of the people. And 
so for a lieutenant to come into the intel world or a junior 
enlisted person to come into the intel world and then go into 
this new business that includes cyberspace, the strategic 
threats and the ability to wrap up things like NACIC, this is 
pretty exciting.
    Mr. Turner. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Turner.
    General, would you say that the personnel in the Air Force 
are being stretched and strained today?
    General Moseley. Sir, I would say, yes, we are.
    The Chairman. All right. You are stretched and strained 
today, and you have loaned the United States Army 7,700 airmen; 
is that right?
    General Moseley. Yes, sir. And, for the most part, they 
have given them back.
    The Chairman. All of them?
    General Moseley. Well, we have some that have transferred 
to the Army but not many. But we have got most of our people--
--
    The Chairman. How many out there are on loan to the Army 
today?
    General Moseley. Sir, to the exact number----
    The Chairman. Give me your best judgment.
    General Moseley. I think there is about 5,500 or 6,000, 
somewhere like that.
    The Chairman. Fifty-five hundred are still out there.
    General Moseley. Yes, sir.
    The Chairman. And you are asking for a reduction in numbers 
in personnel of how much?
    General Moseley. Forty thousand.
    The Chairman. That bothers this country boy from Missouri, 
because you are going to stretch them and strain them, 40,000 
and 7,500 more; am I correct?
    General Moseley. Yes, sir, but, remember, the reason that 
we waded into this was to protect the investment accounts to 
recapitalize an Air Force that----
    The Chairman. No, I understand all that. I am talking about 
the sergeant that is out there and he sees his brother being 
led off to do Army duties and a cut is coming of 40,000. He is 
going to say, ``My gosh, I am working as hard as I can now and 
the corporals there with me are working as hard as they can 
now. What do they expect?''
    So explain to this sergeant why the 40,000 on top of the 
7,500 is being taken away.
    Secretary Wynne. Well, sir, we are down now----
    The Chairman. Oh, no, no. I am asking the general.
    Secretary Wynne. Oh, I am sorry.
    General Moseley. Sir, we have some efficiencies in the 
system that take up some of the 40,000, but that is not the 
biggest number. We don't have fleets of people managing 
vehicles. I mean, we have some efficiencies in the system that 
help.
    The new bomber will take less crew chiefs than the B-52s. 
The C-5 and the C-17 are big differences, the F-22 and the F-15 
are big differences. We deployed less stuff and less people, 
but that is not the preponderance of the 40,000.
    The Chairman. That is just going to be a small amount.
    General Moseley. The 40,000 is to protect the investment 
accounts.
    The Chairman. Now, what in the world does that mean?
    General Moseley. That means if we don't do anything, given 
the top line that we have got, this Air Force will go from age 
24, average, for the inventory to age 30 and then pretty soon 
we won't be able to fly any of the broke airplanes.
    The Chairman. So you are reducing numbers to get more new 
airplanes.
    General Moseley. The entire capital investment, sir--
spacecraft as well as aircraft and as well as ground equipment.
    The Chairman. But that is why you are reducing the numbers, 
to get things.
    General Moseley. And to protect the depot accounts and to 
protect the O&M accounts and to protect the quality of life on 
the bases and to protect all of the things that we do as an Air 
Force to be able to get underneath the physical guidance and 
beneath the physical guidance in the topline. That is where we 
had to go to keep the investment accounts healthy?
    The Chairman. How much more strain will there be on the Air 
Force sergeants in this world? If they are strained right now, 
how much more are they going to be strained when you take 
40,000 out and 7,500 are bled off to the Army?
    General Moseley. Sir, we have got about a dozen stressed 
AFSC, our Air Force Specialty Codes. Those are the most 
stressed of all and those are the----
    The Chairman. How do you unstress them?
    General Moseley. The challenge here, in the case of the 
PJs, we don't have enough PJs because the appetite for PJs is 
so high and the school house is so long. You continue to 
recruit PJs and train them as fast as you can, but you never 
meet the appetite.
    In some of our AFSCs that are stressed, we have 120 percent 
of manning in the AFSC but we don't have seven levels and five 
levels experienced crew chiefs, for instance. So part of this 
is just aging the force. Part of this is experiencing the 
force.
    But, sir, we had to come off of the manpower to be able to 
protect the money, to be able to protect the quality of life, 
the depot accounts, the O&M accounts and the investments.
    Now, the challenges that we will face here is when the Army 
and the Marines grow. We don't yet know what that means, 
because we have not seen the analysis and the breakout of the 
brigade and regimental combat teams.
    Because, sir, you know very well, we have a lot of people 
that live with the land component. Our special ops folks, our 
ETACs, our JTACs, our ASOS, ASOGs, our combat weather, combat 
COMs, all of those people live out there with the Army, and so 
if the Army brigade combat teams grow, these people will grow 
in numbers. And so that is the part that we are going to spend 
some time over the summer working close with the Army to see 
where that takes us.
    The Chairman. You are a potential Air Force recruit, and 
you know of the stress and strain, and you know of the 7,500 
bled off, and you know that the Air Force is going to shrink in 
size. Don't you think that will have a chilling effect on this 
bright, young high school graduate from joining?
    General Moseley. Sir, that is a great question. Let me tell 
you where we are right now. Of every 100 people that we contact 
or that contact us to become an enlisted person in the Air 
Force, we only take one. So we are fairly selective in this 
business of entry into the Air Force.
    So there is some opportunity out there that we don't avail 
ourselves of. On the officer side, we only take 30 out of 100. 
We have not had issues yet with recruiting nor have we had 
issues with retention, because we spend a lot of time on 
quality of life in our bases and where our families live and 
where our people work, and we focus a lot of time on education 
opportunities in PME so people can grow inside the profession.
    But, sir, right now, we are only taking one out of 100, and 
we have not lowered the recruiting standard. We have not 
lowered anything about recruiting or about----
    The Chairman. In other words, you are turning some of them 
down.
    General Moseley. We are turning 99 away for every one kid 
we take to become an airman on the enlisted side.
    The Chairman. How about your officer corps, your young 
officer corps? How is ROTC doing? How is the Air Force Academy 
doing? Are they coming and staying in?
    General Moseley. Sir, for the most part, yes. Our retention 
numbers--we are always going to have challenges with pilots, we 
will always have challenges in some special engineering fields, 
but for the most part, if you continue to produce somewhere 
around 1,100 pilots a year, you will be okay. And we are moving 
toward that magic number of 1,100.
    The Chairman. I want to thank you, Mr. Secretary, General 
Moseley, for being with us today.
    We have a series of votes now, and if there is no 
objection, no further questions, appreciate it.
    Secretary Wynne. Thank you, Mr. Chairman.
    General Moseley. Thanks, Mr. Chairman.
    The Chairman. Adjourned.
    [Whereupon, at 12:52 p.m., the committee was adjourned.]
     
=======================================================================
                            A P P E N D I X

                           February 28, 2007

=======================================================================
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2007

=======================================================================
     

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
=======================================================================
             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 28, 2007

=======================================================================
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. For those of us who are not pilots, now--what is a 10 
percent reduction? What does it mean as far as hours? I mean, how many 
hours do they--were training before? And the 10 percent means how many 
hours of reduction? And what are the risks, if there is any risk 
involved when you do that?
    General Moseley. The 10% flying hour program reduction in the FY08 
budget submission equated to 104,768 flying hours. Our analysis 
indicates that 7.5% of the current 10% reduction is manageable within 
low to medium risk categories. The remaining 2.5% of the reduction is 
in a higher risk category. We continue to evaluate and assess the risk 
incurred by reduction to the program in FY08 and will adjust future 
budget positions based on that analysis.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. SNYDER
    Dr. Snyder. What was the specific cost-breach notification that you 
gave us?
    General Moseley. C-130 AMP declared a critical Nunn-McCurdy breach, 
because the current Program Acquisition Unit Cost and Average 
Procurement Unit Cost will exceed both the original Baseline Estimate 
and current Baseline Estimate by more than 50%. C-130 AMP has 
experienced increases in its unit cost as a result of significant cost 
growth during the development portion of the program.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. What percent of utilization are you flying those 130Hs 
at?
    General Moseley. Sortie utilization (UTE) rate is defined as 
'average sorties per month per aircraft', and in this case, includes 
the entire C-130H inventory (Air National Guard, Air Force Reserve 
Command, and Active Duty Air Force). In 2006 the C-130H sortie UTE rate 
was 23.2--a 46.8% increase over the 2001 sortie UTE rate of 15.8. The 
significant increase in C-130H UTE rate from 2001 to 2006 is directly 
attributed to increase C-130H utilization in the CENTCOM AOR.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SAXTON
    Mr. Saxton. I am interested in getting your perspective on whether 
or not land should be transferred from one service to another, that is 
number one, and number two is, how we can protect and maintain the 
proper quality of life issues between and among the services.
    General Moseley. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE
    Mr. Abercrombie. The FY08 budget request once again does not 
include funding for the JSF alternate engine program.
      a) What advantage does the Air Force see to not having a JSF 
engine competition?
      b) Did the Air Force participate in any of the Congressionally-
mandated analyses in last year's authorization bill to support this 
decision? If so, could the Committee review this analysis?
      c) What amounts would be required to fund the alternate engine in 
FY08 and in the FYDP? Why were these amounts deemed to be unaffordable 
in FY08 and in the FYDP?
      d) Is the alternative engine program proceeding as envisioned 
with the use of FY07 funding until Congress acts on the FY08 budget?
      e) What lessons were learned and what benefits resulted from the 
F100 and F110 engine programs?
    Secretary Wynne. a) Cancelling F136 development will save DOD $2B 
through FY13. The AF portion of that savings would be $1B.
      b) No, in accordance with the authorization bill language, the AF 
did not participate in any of the Congressionally-mandated analyses 
from last year's authorization bill. The bill specifically directed the 
studies be done by OSD CAIG, the Comptroller General and a Federally 
Funded Research & Development Center (FFRDC). OSD selected IDA as the 
FFRDC.
      c) F136 engine development would require $500M in FY08. USAF 
portion would be $250M. F136 engine development would require $2B 
between FY08 - FY13. AF portion of that would be $1B. Cancelling F136 
development will save DOD $2B through FY13. The Department concluded 
that a single engine supplier provides the best balance of risk and 
cost and there were higher priorities in the constrained budget 
environment.
      d) Yes, the Department will continue to provide the funds 
appropriated in the FY07 budget for the F136 program and called for in 
the F136 systems development and demonstration contract, while Congress 
is considering the FY08 request.
      e) The lessons learned from the F100 and F110 engine programs 
have been captured by three Congressionally-directed studies. The 
studies all found intangible benefits to competition in general. 
However, results also indicate that it will be difficult to achieve a 
net return on the investment for an alternate engine. For example, the 
Institute for Defense Analysis (IDA) study determined that 8.8 billion 
in constant FY06 dollars would be required to develop, maintain and 
procure a second engine. $2.1 billion of this would occur in fiscal 
years 2008-2012. They noted that offsetting this amount through savings 
from competition would require a 40 percent savings rate in production 
costs. Production savings of this magnitude appear implausible based on 
savings of 11-18 percent achieved in historical engine competitions. If 
Operating and Support (O&S) costs were effectively competed in addition 
to procurement costs, the required savings rate would fall from 40 
percent of procurement costs to 18 percent of total costs. Because the 
Department of Defense has not typically linked procurement and O&S 
costs in a single competition, IDA found no historical data with which 
to estimate plausible O&S savings under such an acquisition strategy. 
IDA assessed that competition can be expected to bring non-financial 
benefits in the form of fleet readiness, contractor responsiveness, and 
industrial base robustness.
    The Department continues to believe that managing the risk with a 
single engine supplier is the best use of the available resources.
    Mr. Abercrombie. Two Joint Strike Fighters were requested in the 
FY07 Supplemental budget to replace the combat losses of fighter 
aircraft. Since, the JSF aircraft will not be available to the fleet 
for several years, why are these aircraft not listed in the base budget 
as they will not reach the Warfighter during the next fiscal year?
    Secretary Wynne. This request is in accordance with DOD guidance 
which allows the Services to request replacement of combat losses in 
the supplemental. The request for two F-35A aircraft in the FY07 
Supplemental is consistent with the Air Force's recapitalization effort 
and the position of not procuring legacy platforms that are incapable 
of surviving future conflicts.
      Note: White House memo dated 9 March 2007 revised the FY07 
Supplemental request by deleting the funding for the two F-35A aircraft 
``to finance higher priority emerging global war on terror needs''.
    Mr. Abercrombie. The Government Accountability Office (GAO) 
sustained the bid protests of Sikorsky Aircraft Company and Lockheed 
Martin Systems Integration-Oswego (LMSI) against the Air Force's award 
of a contract to The Boeing Company, for the Combat Search and Rescue 
Replacement Vehicle (CSAR-X). The solicitation provided that for 
purposes of the source selection, cost/price would be calculated on the 
basis of the Most Probable Life Cycle Cost (MPLCC), including both 
contract and operations and support costs. GAO sustained the protest on 
the basis that the Air Force's actual evaluation of MPLCC was 
inconsistent with the required approach as set forth in the 
solicitation.
    Secretary Wynne. In its March 29 decision the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26 decision the Air Force intends to amend the Request 
for Proposals (RFP) to clarify its intent with respect to the 
evaluation of Operations and Support (O&S) costs, reopen discussions 
with offerors, and request revised proposals. If the evaluation of the 
revised proposals results in a change to the CSAR-X Best Value Source 
Selection decision, the Air Force will make
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL
    Mr. Marshall. The Air Force has initiated internal budget 
reductions or budget shifting through Program Budget Decision 720 (PHD 
720), that directly affects base operating structures (BOS) through the 
elimination of fire protection positions. Do you feel that these fire 
protection reductions will affect the Air Force's ability to adequately 
respond and mitigate a catastrophic event that could occur at an Air 
Force facility?
    Secretary Wynne and General Moseley. The Air Force will retain its 
capability to respond to emergencies IAW DOD Instructions. We have the 
mandate to be able to respond to and manage a single major emergency 
event. Our new resource levels will achieve that. Our former manning 
for fire and emergency services was able to manage multiple emergencies 
at a given time. We also will continue to mitigate fire risks by 
ensuring our fire prevention and engineering programs remain intact. 
Our facilities are designed to meet all Life Safety Code requirements. 
We're confident that we are taking appropriate risk in managing our 
resources. We have an outstanding record as it has been five years 
since the Air Force has had a major fire event. We are proud of our 
record and believe we can be more effective and efficient in providing 
fire protection in support of our mission.
    Mr. Marshall. A CONOPs, which the Air Force has produced, 
demonstrates that the Air Force intends to rely heavily on outside 
municipal resources for assistance in fire protection, rescue and 
emergency medical service responsibilities for Air Force facilities as 
part of the base operating structure reductions. Do you feet that the 
Air Force has an inherent responsibility to provide adequate emergency 
service response capability for the protection of Air Force assets and 
personnel? Given the unique hazards of an AF base (combat aircraft, 
weapons systems and complex research structures), should that 
responsibility be levied on cash-strapped municipalities and States?
    Secretary Wynne and General Moseley. The Air Force does indeed have 
a mandated responsibility to provide adequate emergency service 
response capability to protect our people and assets. This is a 
responsibility we take seriously. Our new concept of operations will 
staff our Fire & Emergency Services, including rescue, to handle a 
major event IAW DOD Instructions.
    The new Fire Emergency Services Concept of Operations does not rely 
on non-Air Force resources to provide fire protection and rescue at 
required levels. We have had in place Mutual Aid Agreements between 
local municipalities and Air Force bases to ensure shared capability is 
identified for unpredictable catastrophic events. These existing mutual 
aid agreements were not factored into the new concept as far as 
personnel and equipment levels. The mutual aid agreements however 
continue to be an effective tool in managing both on and off base 
resources for large events.
    The fundamental premise of the staffing reductions is that Air 
Force fire departments have more resources than they require based on 
DOD Instruction and actual fire emergency response data. Those excess 
positions can be reduced with no quantifiable risk to Air Force people 
and property. There is no shift in responsibility for fire protection 
to external entities. Regarding Emergency Medical Services, Air Force 
bases routinely contract with local providers for all service beyond 
Air Force capability at that location. This arrangement is compensated 
and not based on Mutual Aid Agreements.
    Mr. Marshall. These reductions, regarding fire and emergency 
services also appear to directly affect the Air Force's capability to 
affect an aircraft rescue or mitigate an aircraft incident. A review of 
the CONOPs shows that the AF will reduce staffing on aircraft 
firefighting vehicles from three (3) personnel to two (2). This appears 
to conflict with DOD requirements (DOD instruction DOD 6055.6) which 
establishes that such vehicles will be staffed with three (3) 
personnel. Does the Air Force intend to violate DOD Policy regarding 
these reductions?
    Secretary Wynne and General Moseley. The CONOPS defines the most 
probably major fire emergency involving aircraft. Revised Air Force 
manpower standards will provide the authorizations to deliver this 
level of service. The CONOPS does not reduce manpower on any fire 
fighting vehicles. The number of firefighters required on fire vehicles 
is determined by the incident commander. DODI 6055.06, Fire and 
Emergency Services Program, does not prescribe the number of 
firefighters required on specific vehicles. This document addresses 
``fire companies'' which can include multiple vehicles for the required 
company firefighters. The Air Force fully conforms to DODI 6055.06 
today and will continue to do so after the PBD 720 reductions are 
executed.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. The Air Force budget submission requests $69.2 
million for the A-b Wing Replacement Program. However, the Air Force's 
Unfunded Priority List includes an additional $37.5 million for Fiscal 
Year 2008, to purchase six additional wings. Close Air Support is one 
of the Air Force's most important combat missions in Iraq and 
Afghanistan. What degree of risk does slowing the rate of A-10 
recapitalization create for the Close Air Support mission, given the 
planned expansion of the Army and the Marine Corps?
    Secretary Wynne and General Moseley. [The information referred to 
is classified and retained in the committee files.]
    Ms. Giffords. Does the Air Force consult with the Army and Marine 
Corps when making budget decisions that could affect the availability 
of air support for ground troops? If so, what was the Army and Marine 
Corps reaction to your budget decision? If not, why not?
    General Moseley. The Air Force takes its responsibility very 
seriously to provide timely and effective air, space and information 
support to meet Combatant Commander requirements of which US and 
Coalition land forces are one of the integral warfighting components. 
As a member of the Combatant Commander's warfighting team, today's land 
forces require close air support aircraft and supporting personnel, 
persistent intelligence, surveillance and reconnaissance, secure 
satellite communications, and inter-/intra-theater airlift all provided 
by the US Air Force. Our staff works diligently to balance all of these 
requirements within our available obligation authorization to provide 
the best balance of trained and equiped forces today and in the future.
    The Air Force is a key member of the Joint close air support 
executive steering committee that reports to the Joint Requirements 
Oversight Council (JROC), ensuring the Services establish a joint 
position for the future of close air support operations. These vetted 
requirements are used to guide and influence budget decisions, but 
there are more requirements than funding available. Each Service then 
balances funding and risk to best optimize their force mix and provide 
capability to support the National Military Strategy and Combatant 
Commanders.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. CASTOR
    Ms. Castor. How does the United States monitor other countries' 
procurement and development of air systems? What do we know?
    Secretary Wynne. A key National Air and Space Intelligence Center 
(NASIC) mission is to establish future aerospace force assessments. 
This mission prevents technological surprise through research, 
development, and acquisition analysis and forecast assessments. These 
assessments are derived from manpower, equipment, material, processes 
and facilities analysis for key strategic countries. In addition, NASIC 
assesses on-going air system developments worldwide to ensure current 
warfighters are constantly appraised of the foreign state-of-the art 
available to any potential adversary. These technical assessments build 
on the aerospace force assessment and provide detailed capabilities and 
performance estimates for planning and tactics development, as well as 
specific requirements for US weapons systems acquisition programs.
    NASIC uses all sources of intelligence to derive these assessments. 
Our primary intelligence monitoring sources are: Imagery Intelligence 
(IMINT), Human Intelligence (HUMINT), Signals Intelligence (SIGINT), 
Measurement and Signatures Intelligence (MASINT), and Open Source 
Intelligence (OSINT). These sources provide a foundation to monitor, 
understand and identify trends in air and aircraft weapon systems 
research, development and acquisition (RDA) processes. The sources also 
help identify air system programs and resources. NASIC collaborates 
with the entire Intelligence Community (IC) to develop and maintain 
intelligence collection requirements. These are driven by target 
country doctrine and strategy. The analyses from these sources yield 
assessments on a country's strategy and capabilities for weapon systems 
development and procurement. The assessments include forecasts of when 
key air systems will become operational, i.e., reach their initial 
operational capability (IOC). NASIC also conducts analysis on overall 
trends in a country's investment in its weapons research, development, 
test, and evaluation resources.
    NASIC has successfully forecast and accurately assessed strategic 
countries' procurement and development of leading air systems. In 
addition we produce original scientific & technical intelligence on the 
characteristics, capabilities, limitations, and exploitable 
vulnerabilities of foreign air systems. This intelligence is in support 
of current and future warfighters and national policymakers.
    Ms. Castor. What is the Air Force doing to facilitate the use of 
alternative fuel?
    Secretary Wynne. The Air Force intends to test and certify a 
synthetic fuel blend in the entire aircraft fleet by 2010.
    Currently, we are completing the testing of the synthetic fuel 
blend in the B-52, with certification expected by the end of the 2007. 
In addition, we are working with the Federal Aviation Administration 
and the commercial airline industry (Commercial Aviation Alternative 
Fuels Initiative - CAAFI) to test and certify the use of synthetic 
fuels in high-bypass engines by 2009. Since the commercial airline 
industry uses 85% of the jet fuel in the U.S. and the Air Force uses 
the same type engines on our transport and refueling aircraft, we feel 
it is prudent to work together to facilitate the use of synthetic 
fuels.
    The Air Force goal is to acquire 50% of our domestic aviation fuel 
from domestic sources producing a synthetic fuel blend by 2016. It is 
our intent to procure synthetic fuels from sources that have carbon 
capture and sequestration (CCS) technology and equipment in order to 
greatly reduce carbon dioxide (CO2) emissions.
    Ms. Castor. What is the most consequential impact to the Air Force 
of airmen and airwoman being assigned in lieu of (ILO) ground force 
tasks?
    Secretary Wynne. Airmen supporting US Central Command's ILO 
requirements predominantly serve in their core competencies and receive 
valuable combat experience in doing so. Approximately 80% of Airmen 
serve in core skill sets. The remaining 20% perform ILO tasks outside 
of their core competency and require extensive additional training. 
These represent the most consequential impact. These areas are 
comprised of interrogator and Detainee Operations specialists. The Air 
Force does not possess an interrogator specialty which requires tasking 
Airmen to attend 6 months of training before deploying to the combat 
zone. These disposable skill sets require Airmen to leave their primary 
career fields for up to 18 months. Detainee Operations requirements 
have similar consequences in that the specific skills, taught by the 
Army to execute the Detainee Operations mission, are not required by 
Airmen on return to their bases.
    The Air Force is aggressively pursuing options to limit Airmen 
performing duties outside their core competency. Currently, all Airmen 
interrogator requirements are eliminated and an ongoing initiative is 
shifting Airmen from Detainee Operations requirements to missions more 
in line with Security Forces specific skill sets. Ultimately we will 
continue to work with our joint partners to ensure we provide the best 
military solution for the Combatant Commander.
    Ms. Castor. Please detail the strengths and weaknesses in the Air 
Force Reserve and Air National Guard's ability to contribute to 
national responses if the nation is hit by a natural or catastrophic 
event.
    Secretary Wynne. Reserve: The Air Force Reserve is able to respond 
immediately to an event because we train to one-tier of readiness. We 
are bound only by the availability of Military Personnel and Operation 
and Maintenance funds.
    Air National Guard: Thirty-Four percent of our air and space force 
capability is resident in the Air National Guard. Each day, 
approximately 16,000 Air National Guard members are supporting 
continental air defense, another 5,000 are mobilized or deployed and 
they continue to provide a critical surge capability for the Air Force. 
They not only protect America's skies, but also provide critical skills 
for domestic operations: airlift, air traffic control, weather, 
medical, communications, civil engineers, security forces, aerial 
firefighting systems, and many other capabilities. All of these 
capabilities are ``dual use'' capabilities derived from the Air 
National Guard's federal role.
    The Air National Guard's 177 locations are spread across 54 states 
and territories and, unless deployed away from home, members live and 
work near their units. If one area of the country is hit with a natural 
or catastrophic event, the other areas quickly respond, as they did in 
their historic response to Hurricane's Katrina and Rita. This response 
is rapid and agile but can be difficult to coordinate.
    Our adaptable airmen have overcome challenges brought on by a 
piecemeal approach to how we present capability to the governors and 
domestic responders. The bottom line is there is a lack of identified 
requirements to allow the Air Force to adequately plan and allocate 
resources. While this can easily be misunderstood as a Department of 
Defense problem, this issue crosses many agencies and departments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MEEHAN
    Mr. Meehan. I would like to complement the United States Air Force 
for their excellent work in protecting our troops by providing 
ballistic armor in all C-130 and C-17 transport aircraft. I know this 
has been essential to safe operation in many theatres including Iraq an 
Afghanistan. I note with great interest that the Air Force, through its 
unfunded priorities list, has now placed high priority on procuring and 
installing the same add-on armor on the C-5 aircraft. It's my 
understanding that some initial work is being done to procure the first 
few such armor kits. I would like to understand your plans for 
outfitting the full fleet as quickly as possible to ensure that the C-5 
crews have the same protection the Air Force has always provided for C-
17 and C-130 crews.
    Secretary Wynne. Thank you for your interest in the protection of 
our aircrews and the protective armor needed to help assure their 
safety. The Air Force Reserve has allocated $2.5M in order to procure 
11 kits for aircraft assigned to Westover. The AF has requested an 
additional $18.5M to procure the remaining 100 kits to outfit the total 
force fleet via the 2008 Unfunded Priority List. If these funds are 
appropriated, the vendor has demonstrated the capability to deliver.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. EVERETT
    Mr. Everett. General Moseley, I know how important educational 
opportunities are in the recruitment and retention of a high quality 
force. But I understand that the current language in the National 
Defense Authorization Act hinders your ability to offer some of the 
educational programs you would like to see at Air University at Maxwell 
AFB in Alabama. What changes would you recommend to this language and 
why is this important?
    Secretary Wynne. A change in congressional language would make our 
professional military education programs more responsive to our 
emerging GWOT requirements. We see a need for Bachelors Degree for 
Enlisted Airmen, a hybrid resident and distance learning Master's 
Degree for young officers, a Master's Degree in Flight Test Engineering 
for the Test Pilot School, and a PhD for a few officers in Strategic 
Studies. All these programs are beyond our authority under the current 
language in the National Defense Authorization Act (NDAA). We could be 
more responsive if the Commander of Air University had the authority to 
grant these degrees and others we might identify in the future.
    This is not a request for funding . . . just a request to pursue 
better educational opportunity for our people, and to increase our 
intellectual throw weight in the tactical, operational and strategic 
levels of discourse regarding the role of an Air Force in the affairs 
of the nation.
    Mr. Everett. I was please to see last Fall that the Air Force stood 
up a Cyberspace Command with the mission of providing freedom of access 
to cyberspace. Within this command, I am particularly interested in the 
work the Air Force is doing in the area of network security. How does 
both network and application security fit into the overall construct of 
the mission of the new Cyberspace Command? Do you feel as though you 
have adequate resources to address the threat to our networks and 
applications?
    Secretary Wynne. A change in congressional language would make our 
professional military education programs more responsive to our 
emerging GWOT requirements. We see a need for Bachelors Degree for 
Enlisted Airmen, a hybrid resident and distance learning Master's 
Degree for young officers, a Master's Degree in Flight Test Engineering 
for the Test Pilot School, and a PhD for a few officers in Strategic 
Studies. All these programs are beyond our authority under the current 
language in the National Defense Authorization Act (NDAA). We could be 
more responsive if the Commander of Air University had the authority to 
grant these degrees and others we might identify in the future.
    This is not a request for funding . . . just a request to pursue 
better educational opportunity for our people, and to increase our 
intellectual throw weight in the tactical, operational and strategic 
levels of discourse regarding the role of an Air Force in the affairs 
of the nation.
    Mr. Everett. As you know, the force structure of the Air Force 
Reserve is being affected by a variety of factors, including BRAC, the 
Air Force's Total Force Initiative, and Program Budget Decision 720, 
which eliminates 7,655 positions. One issue of particular concern to me 
is inactive duty training (IDT). What steps are being taken to ensure 
that the Air Force Reserve component have the authority they to ensure 
that reservists are receiving the training that they need?
    Secretary Wynne. At this time the Air Force Reserve (AFR) is 
meeting all training requirements. As requirements evolve, we will make 
necessary adjustments, including seeking legislative relief, if 
necessary.
    Mr. Everett. Given China's January 11th test of an anti-satellite 
weapon-the first antisatellite test in over 20 years, a) What new 
capabilities or additional resources are needed to counter this threat 
and address other growing threats to space? b) In your testimony, space 
situational awareness (SSA) is a top priority yet for two key SSA 
programs, Space Based Space Surveillance (SBSS) and the Space Fence, 
the Air Force has requested $46 million less than expected in fiscal 
year 2008. Furthermore, funding of space control technology, 
counterspace systems, and SSA systems and operations comprises roughly 
$300 million in FY 2008. Is this funding adequate given the overall 
investment in space and growing threats to space? c) As threat to space 
and operations in space increase, so too will the need for a robust 
space intelligence capability. How does the Air Force plan to address 
this requirement? d) To what extent will the Chinese test and other 
emerging threats to space change the DOD's investment priorities in 
space? Furthermore, to what extent will this drive us to different 
types of systems and capabilities, or a different space architecture?
    Secretary Wynne. The Air Force recognizes space control as a top 
priority and is placing a greater emphasis on Space Situation Awareness 
(SSA), space command and control, and space protection. One of the key 
elements of a robust SSA effort is the ability to integrate SSA data 
and enhance space command and control. In the FY08 President's Budget, 
the Air Force has added funds for a new program called Space Situation 
Awareness Foundational Enterprise (SSAFE), which will ensure the right 
processing and connectivity behind the sensors to support the timely, 
correct decision making necessary to counter emerging threats.
    The budget for SSA and space control is adequate relative to the 
threat and the Air Force's overall investment strategy. The Air Force's 
top SSA priority in the FY08 President's Budget was to maintain the 
continuity of current capabilities. To that end, funding for Space 
Based Surveillance System (SBSS) Block 10, which will supplant the 
Space-Based Visible as the primary space-based SSA sensor, was 
increased to ensure that system is launched in FY09.
    The Department of Defense (DOD) is addressing requirement for a 
robust space intelligence capability by improving the capabilities of 
the National Air and Space Intelligence Center (NASIC), the primary DOD 
producer of foreign aerospace intelligence. Specifically, NASIC is 
adding resources to collect/process/evaluate open source and classified 
literature/material necessary to exploit and integrate available 
intelligence to increase awareness of foreign space/counterspace 
capabilities and predict intent. The increase in and acceleration of 
emerging threats in space validated the DOD's increased emphasis on 
developing a capability to rapidly launch and deploy satellites to 
surge capability or reconstitute lost or damaged satellites. In the 
FY08 President's Budget, the Air Force significantly increased funding 
for the Operationally Responsive Space program to demonstrate the 
ability to develop and launch Tactical Satellites (TacSat). The first 
TacSat was successfully launched in December 2006 and two more launches 
are planned for 2007.
    Mr. Everett. A topic of considerable focus over the last few years 
has been the relationship between ``black and white'' space. What areas 
of cooperation and/or integration between ``black and white'' space do 
you see as valuable? What are your plans to further black and white 
space integration?
    Secretary Wynne. Integration and partnership across Department of 
Defense (DOD) and the Intelligence Community is essential for providing 
the nation with effective and efficient space capabilities to support 
national security activities; the Air Force is committed to fostering 
this relationship.
    There is value added to any activity that pursues efforts to 
maximize the partnership and integration between the Intelligence and 
Defense communities, particularly ``black'' and ``white'' space. The 
NSSO is following the highly successful Transformational Communication 
Architecture with development of architectures for Position, 
Navigation, and Timing; Space Control; and Intelligence, Surveillance, 
and Reconnaissance.
    Integration efforts include building architectures, Concepts of 
Operations, Intelligence, Surveillance and Reconnaissance (ISR), 
Communications, Launch and Ranges, S&T, Specifications and Standards, 
Industrial Base, CADRE, Acquisition processes and lessons learned, 
relations with other Civil Agencies, and joint operations where 
possible.
    Joint forums between the Air Force and NRO afford the opportunity 
to coordinate and share across the National Security Space enterprise. 
As we look towards future integration of black and white space, 
collaborative efforts such as the Space Partnership Council allows for 
senior space leadership in the DOD, civil, and intelligence communities 
to discuss issues of mutual interest. The council meets about three 
times a year; example topics include Space Situational Awareness, Space 
Control, Space Acquisitions, Space Professional Development, Space 
Launch,
    Mr. Everett. The Committee noticed that Space Radar funding is now 
classified and reflects a change in funding from an Air Force program 
line to a Military Intelligence Program (MIP) line. What motivated the 
change in funding sources for the Space Radar? What ramifications will 
this have on system development, program management, and cost sharing 
between the Department of Defense and Intelligence Community? What is 
the status of the DODIC memorandum of agreement currently in revision?
    Secretary Wynne. The Office of the Secretary of Defense (OSD) 
directed the movement of Space Radar funds from the Air Force Military 
Intelligence Program (MIP) to the NRO MIP. This movement has occurred. 
These funds remain under the jurisdiction of the DOD, to be applied to 
the Space Radar Program. In concert with this movement, OSD and the 
Office of the Director of Intelligence (ODNI) have developed a cost-
sharing budget agreement for FY 2008-13 as demonstrated in the FY08 
President's Budget (PB) submission. The movement of these funds does 
not affect Space Radar system development or program management. A 
draft Memorandum of Agreement between the Deputy Secretary of Defense 
and the Principal Deputy Director of National Intelligence is in final 
coordination and documents the Space Radar cost-sharing agreement. It 
also establishes the framework for Space Radar program management and 
oversight as a joint OSD and ODNI program. Final cost sharing for the 
production effort in FY14 and beyond is to be determined in the FY 2009 
PB submission. Space Radar continues to be the single, shared space 
radar capability for the nation. Support for both the MIP and the 
National Intelligence Program funding lines is important so we can 
maintain DOD and the Intelligence Community synchronization on the 
program.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. HAYES
    Mr. Hayes. General Moseley and Secretary Wynne, I want to ask you 
both about how you are going to handle the $15 billion contract for the 
CSAR-X Combat Search and Rescue helicopters. The General Accountability 
Office has just called the winning bid ``inconsistent'' with the 
requirements spelled out in the Request for Proposal. The GAO is very 
impartial, and they found in their recent ruling regarding award of 
CSAR-X that flaws in the initial RFP and procurement process are 
serious enough that the Air Force should re-issue a corrected RFP, 
solicit updated proposals, and hold new evaluations of the offered 
proposals. GAO rarely upholds protests, and has never upheld a protest 
of a program of this magnitude, so it is important for the Air force to 
follow through on this ruling. In light of the GAO upholding the CSAR-X 
protest, what is the Air Force's plan to go forward with the CSAR-X 
procurement?
    Secretary Wynne. In its March 29 decision the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26 decision the Air Force intends to amend the Request 
for Proposals (RFP) to clarify its intent with respect to the 
evaluation of Operations and Support (O&S) costs, reopen discussions 
with offerors, and request revised proposals. If the evaluation of the 
revised proposals results in a change to the CSAR-X Best Value Source 
Selection decision, the Air Force will make any necessary changes in 
the contract award decision.
    Mr. Hayes. How will the Air Force address the need to procure the 
right aircraft for the warfighter and the CSAR mission?
    Secretary Wynne. From program inception, Air Force Combat Search 
and Rescue (CSAR) personnel, including experienced aircrew and 
maintainers, have been involved in every step of this acquisition. We 
have a moral obligation to deliberately and expeditiously deliver the 
Combat Search and Rescue capability the warfighter needs to protect 
those who are in the fight today, and in the future, in operations 
around the world. The Air Force operational and acquisition communities 
will continue to work as a team to procure and field the best possible 
aircraft for our warfighters.
    Mr. Hayes. I am concerned by recent statements from the Air Force 
indicating that because of the need to get a new rescue aircraft into 
the field quickly, the Air Force is willing to proceed with the 
intention of ``narrowly'' interpret this GAO decision. How and why do 
you intend to do so? Fielding a system quickly is important, but most 
important is choosing the best platform to support the warfighter. In 
your selection process, will fielding a system quickly take precedence?
    Secretary Wynne. In its March 29 decision the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26 decision the Air Force intends to amend the Request 
for Proposals (RFP) to clarify its intent with respect to the 
evaluation of Operations and Support (O&S) costs, reopen discussions 
with offerors, and request revised proposals. In evaluating the 
responses to the RFP amendment, the Air Force will continue to apply an 
integrated Best Value assessment, which considers Mission Capability, 
Proposal Risk, Past Performance, and Cost/Price evaluation factors. If 
the evaluation of the revised proposals results in a change to the 
CSAR-X Best Value Source Selection decision, the Air Force will make 
any necessary changes in the contract award decision. The Air Force 
remains committed to a fair, open and transparent process while working 
to resolve this protest. Additionally, we have an obligation to 
deliberately and expeditiously deliver the Combat Search and Rescue 
capability the warfighter needs.
    Mr. Hayes. Can you assure the committee that the Air Force will 
take the proper steps to assure the GAO ruling is followed, including 
their suggestion of a re-bid? Can you assure us that proposals will be 
re-evaluated?
    Secretary Wynne. In its March 29 decision the GAO denied all of the 
additional arguments raised by Sikorsky and Lockheed Martin Systems 
Integration, ``finding that none furnished an additional basis for 
sustaining the protests.'' In response to the GAO's recommendation in 
their February 26 decision the Air Force intends to amend the Request 
for Proposals (RFP) to clarify its intent with respect to the 
evaluation of Operations and Support (O&S) costs, reopen discussions 
with offerors, and request revised proposals. If the evaluation of the 
revised proposals results in a change to the CSAR-X Best Value Source 
Selection decision, the Air Force will make any necessary changes in 
the contract award decision.
    Mr. Hayes. Are you planning a thorough requirements review or will 
cost be the only area you are going to examine?
    Secretary Wynne. The Air Force is not planning an additional review 
of the CSAR-X Capability Development Document (CDD) requirements. The 
Air Force did a thorough review of CSAR-X requirements when the CSAR-X 
CDD went to the Air Force Requirements for Operational Capability 
Council (AFROCC), en route to the Joint Requirements Oversight Council 
(JROC) where the CSAR-X CDD was validated on 16 Aug 05. The Air Force 
intends to comply with the GAO's February 26 Recommendation by amending 
the Request for Proposals (RFP) to clarify its intent with respect to 
the evaluation of Operations and Support (O&S) costs, reopen 
discussions with offerors, and request revised proposals. If the 
evaluation of the revised proposals results in a change to the CSAR-X 
Best Value Source Selection, the Air Force will make any necessary 
changes in the contract award decision.
    Mr. Hayes. Was the lowest cost helicopter in the original CSAR-X 
competition the one which was selected?
    Secretary Wynne. The CSAR-X source selection decision was based on 
an integrated assessment using Best Value source selection criteria. 
The Best Value selection criteria included Mission Capability, Proposal 
Risk, Past Performance and Cost/Price factors. As reported in the 26 
Feb 07 GAO decision document for public release, Lockheed Martin had 
the lowest evaluated Most Probable Life Cycle Cost under the Cost/Price 
factor.
    Mr. Hayes. Also, it is my understanding that CSAR pilots and users 
were not closely included in the source selection process and in the 
selection committee. I am especially concerned that the initial 
platform chosen was questioned by numerous analysts and CSAR crews for 
this particular mission. Moving forward will CSAR pilots and users' 
concerns and input be given thorough consideration? How so?
    Secretary Wynne. From program inception, Air Force Combat Search 
and Rescue (CSAR) personnel, including experienced aircrew and 
maintainers, have been involved in every step of this acquisition, as 
well as participating as members of the source selection team and 
source selection advisory council. The development of CSAR-X 
requirements was led by Air Force pilots, aircrew, and support 
personnel who have flown demanding CSAR missions, maintained the HH-
60G, and supported CSAR operations in austere locations around the 
world. As we move forward with the CSAR-X program, CSAR aircrew and 
support personnel will continue to play a vital role in its 
acquisition, development, testing and fielding.
    Mr. Hayes. Have any of the helicopters in the CSAR-X competition 
been used for rescue in Afghanistan or Iraq? Which ones? How did they 
perform?
    Secretary Wynne. Variants of the H-47 and EH-101 have been deployed 
to Iraq or Afghanistan. While these platforms provide an inherent 
rescue capability associated with any helicopter, to the best of our 
knowledge they are not dedicated to Combat Search and Rescue (CSAR). 
The Air Force is the only service within the Department of Defense to 
provide dedicated forces conducting the CSAR mission. The fact these 
forces are dedicated is critical as it ensures CSAR is always available 
and not delayed.
    Mr. Hayes. How ``survivable'' is the original contest winner in a 
high threat area? Why do you see it as the best helicopter for the CSAR 
mission?
    Secretary Wynne. The Capability Development Document (CDD) is based 
on rigorous mission analysis and its development aided by combat 
experienced HH-60G CSAR operators and maintainers. The CDD outlines the 
required key performance parameters, key system attributes, and 
attributes to include survivability needed for the CSAR-X aircraft. The 
H-47 variant proposed by Boeing meets or exceeds all requirements as 
set forth in the CDD.
    Mr. Hayes. Are any of the helicopters in the competition being used 
as rescue helicopters by any of our major allies? If so, which ones?
    Secretary Wynne. While our allies may be deploying variants of the 
H-47, S-92 and US-101 as a vertical lift platform with the inherent 
rescue capability associated with any helicopter, to the best of our 
knowledge they are not dedicated to Combat Search and Rescue (CSAR). 
The Air Force is the only service within the Department of Defense to 
provide dedicated forces conducting the CSAR mission. The fact these 
forces are dedicated is critical as it ensures CSAR is always available 
and not delayed.
    Mr. Hayes. Do you think that the current situation is a result of 
an ``era of protests'' caused by declining defense programs or is it a 
reflection of a poorly executed acquisition?
    Secretary Wynne. The CSAR-X acquisition is not indicative of 
problems within the Air Force acquisition system. The Air Force is 
employing and remains committed to fair, open and transparent 
acquisition processes.
    Mr. Hayes. Since this is the first major acquisition since the Air 
Force received its acquisition authority from OSD, is this executed 
acquisition indicative of any problems or flaws with the Air Force 
acquisition system?
    Secretary Wynne. No, the CSAR-X acquisition is not indicative of 
problems within the Air Force acquisition system. The Air Force is 
employing and remains committed to fair, open and transparent 
acquisition processes.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. The first RAND study will be issued 31 March. I am 
concerned that the study will not address the 2005 BRAG finding, now 
law, that Eglin is an RDT&E center of excellence. Mr. Chairman, with 
your permission I would like to submit the DOD and BRAC commission 
comments on Eglin Air Force Base's military value and will not read 
them now. SECDEF quote from BRAC report: ``http://www.brac.gov/
finalreport.htmt'' Eglin is one of three core integrated weapons and 
armaments RDAT&E centers (with China Lake, CA, and Redstone Arsenal, 
AL) with high MV and the largest concentration of integrated technical 
facilities across all three functional areas. Eglin AEB has a full 
spectrum array of Weapons & Armaments (W&A) Research, Development & 
Acquisition, and Test & Evaluation (RDAT&E) capabilities. Accordingly, 
relocation of Hill AFB and DTRA NCR W&A capabilities will further 
complement and strengthen Eglin as a full spectrum W&A RDAT&E Center. 
``Commission findings htm://www.brac.gov/finalreport.html'' The 
Commission found merit in DOD's proposal to create a fullipectrum 
capability at Eglin for Weapons and Armaments, and found no reason to 
disagree with the Secretary's recommendation. The Commission carefully 
examined the justification for the Secretary's recommendation to 
transfer in-service engineering responsibilities for research, 
development and acquisition, test and evaluation from FUII Air Force 
Base to Eglin Air Force Base, and found it would enhance long-term 
military value. ``Do you agree with the BRAC law, and if not, what does 
the Air Force intend to do to implement its desired Test and Evaluation 
plan while still complying with the law?
    General Moseley. The Air Force Cost-Benefit analysis required by 
the Fiscal Year 2007 Defense Appropriations Act will be delivered to 
Congress no later than 30 April 2007. The Air Force will comply with 
BRAC law and will implement the Secretary of Defense's recommendation 
to relocate Weapons and Armaments In-Service Engineering Research, 
Development and Acquisition, and Test and Evaluation from Hill Air 
Force Base to Eglin Air Force Base.
    Mr. Miller. As a result of PBD 720, the Air Force proposed 
realigning a portion of its Test & Evaluation capability and divesting 
itself of other capabilities, in order to generate future cost savings. 
The Air Force is currently conducting a cost benefit analysis mandated 
by Congress in the FY07 National Defense Authorization and the Defense 
Appropriations Acts, prior to implementing such a plan. We have been 
told that the target date for the final assessment is June 2008, 
although the assessment might be delivered as early as December 2007. 
Likewise, most of the cuts to Air Force T&E in the FY08 and FY09 budget 
were restored, pending the results of the cost benefit analysis. Can 
you assure this committee that the Air Force will maintain funding of 
its T&E infrastructure at least through the budget submission for FY10, 
which is the budget submission after the cost benefit analysis is 
completed? Also, we have been told that there is an additional study 
underway by the RAND Corporation to assess the infrastructure and 
staffing required to support Air Force Test & Evaluation. One could 
assume that this study might find that additional infrastructure or 
staffing is required. Has the study been constrained in any way to 
simply look for cuts within the T&E enterprise?
    General Moseley. The Air Force is faced with budget challenges, 
continuous combat operations, and the need to reconstitute the force. 
This has resulted in the Air Force considering all options available to 
maximize efficiencies. This includesoptimizing the Test and Evaluation 
infrastructure. The Air Force is engaged in several studies, including 
a RAND study, to assist the Air Force with this effort. The RAND study 
was not constrained to only identifying cuts within the T&E enterprise 
and appropriate funding will be allocated to support optimizing the 
Test and Evaluation infrastructure.
    Mr. Miller. With the average aircraft age currently at 24 years, I 
know you're concerned about modernizing and/or replacing many 
airframes. Are you comfortable with the state of our C-130 center wing 
boxes and our C-130 Fleet overall and second do you feel the budget 
request was large enough? Do you believe AC-130U operational tempo has 
accelerated fatigue damage to center wing over the previous 
projections?
    General Moseley. First, let me say we are confident the current 
restriction/grounding limitations and center wing box replacement 
program have effectively mitigated the risks that center wing fatigue 
damage has on the C-130 fleet. The Air Force budget request is 
sufficient to address the immediate needs for the Center Wing 
Replacement (CWR) program. However as pointed out, the increase in 
flying hours of the AC-130U in support of the war on terrorism has 
accelerated the need to replace AC-130U Center Wing Boxes from FY12 as 
originally scheduled to FY10, requiring purchase of AC-130U Center Wing 
kits in FY08 in lieu of those programmed for the C-130H fleet.
    Mr. Miller. The Air Force has been designated lead service for the 
Joint SOF/CSAR Recapitalization Program and will procure and field 
basic aircraft, common support equipment and trainers for USSOCOM. It 
is my understanding that the acquisition strategy is currently under 
review and a materiel solution has not been determined. Additionally, 
the Joint SOF/CSAR tanker recapitalization ICE was approved by the JROC 
on 18 Oct 06 and a report to Congress provided in FY06. What is the 
status of the additional report to accelerate SOF tanker recap due in 
FY07? Do you feel the Joint SOF/CSAR Recapitalization Program is on 
schedule?
    General Moseley. The HC/MC-130 Recapitalization Program is 
progressing well. The Joint Requirements Oversight Council validated 
the Initial Capabilities Document (ICD) in Oct 06, and OUSD(PA&E) 
graded our Analysis of Alternatives as ``Sufficient'' in Feb 07 and 
recommended recapitalizing Air Combat Command's HC-130P/N and Air Force 
Special Operations Command's MC-130Es and MC-130Ps with new modified, 
medium transport aircraft. We anticipate Joint Staff review and 
validation of the Capabilities Development Document in May, which would 
meet our target date. Meanwhile, Aeronautical Systems Center is 
conducting market research to determine the best strategy for HC/MC-130 
Recapitalization. That determination will be made in the May - Jun 07 
timeframe.
    USSOCOM and Air Force are preparing a response to the FY07 NDAA 
HASC Report request regarding ``U.S. Special Operations Command 
Aviation Modernization.'' We anticipate the report will be submitted by 
the end of Apr 07.
    Mr. Miller. It's my understanding that the President's Budget 
Request for fiscal year 2008 includes $49 million for repairs to Santa 
Rosa Island Range Facilities. I'm very happy to see this and was 
disappointed OMB removed the $169 million the DOD submitted in one of 
last year's supplementals since the hurricane damage was not Katrina 
related. What is the Air Force's plan to ensure that at least $169 
million is provided to this island which protects all of Eglin Air 
Force Base and much of the community?
    Secretary Wynne. The Air Force is committed to restore full access 
and protection of critical test capabilities at Santa Rosa Island Range 
Complex test sites. The construction funds are needed to construct 
seawalls, repair roads, and restore the land mass. We have included two 
projects totalling $84.0 million in the FY08 President's Budget; 
Construct Seawalls ($35.0 million) and Repair Roads ($49.0 million). 
The third project, Land Mass Restorations is tentativly programmed in 
the FY10 MILCON program at $38.0 million. This project was deferred to 
FY10 because of need for full environmental assessment study. In 
addition, we have programmed $13.0 million for design of these three 
projects. The total cost for restoring the test capability at Santa 
Rosa Island Range Complex is about $135.0 million. This is less than 
the original estimated cost of $169.0 million.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. GINGREY
    Dr. Gingrey. Mr. Secretary, we certainly understand the need for 
efficient and effective aircraft that meet the warfighter's needs. As 
you know, I support both the C-17 and C-5 programs. You previously 
testified that selective C-5A retirements would allow you to save 
excessive maintenance money and buy new C-17s. Considering that the O&S 
costs of a C-5 and C-17 (on an annualized per aircraft basis) are very 
similar, what analysis has the AF done which suggests that this is 
fiscally advantageous? It is true that C-5A/Bs today have a higher per 
flying hour cost than C-17's, but when one measures the amount of cargo 
carried by both aircraft, the cost of delivered cargo (cost-per-ton-
mile) are remarkably similar between the aircraft. In fact, modernized 
C-5Ms will have a significant advantage over the C-17 in terms of cost-
per-ton-mile, and the investment will pay for itself. The Year 2005 
USAF estimates of modernization O&S reductions were $20.4B BY00$ or 
$49.8B TY$ which did not include an additionally anticipated $2B in 
fuel savings. Reduced Total Ownership Costs (O&S savings - investment) 
is $11.48 BY00$ or $38.2B TY$. RERP pays for itself while generating 
an extra $38B TY$s to support AF recapitalization of other priority 
programs in the future, such as space, tankers and fighters that you 
mentioned. Even the AF's own C-5 Fleet Viability Board took a look at 
C-5 O&S costs and concluded they were not out of line with other heavy 
aircraft, considering the size and cargo carrying capability of the C-
5. Consequently, it does not appear that the AF's argument to trade C-
5s (with decades of service life remaining) for C-17 has any fiscal 
advantage, nor generates a significant operational effect. In fact, it 
seems much more prudent to apply the cost of a single C-17 toward 
modernizing 3 C-5s, which provide 6 times the cargo capacity. Why 
should Congress support replacement of C-5s with C-17s when there 
appears to be no compelling reason to do so?
    Secretary Wynne. Ongoing evaluation of the RERP program has brought 
previous estimates of cost savings into question. The assumptions that 
led to predictions of $11.4B in cost savings through 2040 did not 
account for the recently identified cost pressures associated with 
engines, pylons, and touch labor. The Air Force is currently engaged in 
a detailed cost estimating effort to establish a service cost position 
for C-5 RERP. This detailed cost estimate is forecast to complete by 
July 2007.
    A robust, modernized C-5 fleet is a force multiplier, carrying 
roughly twice the palletized payload of a C-17 and is the only aircraft 
that can carry certain cargo. This enables the C-17 fleet to fully 
exploit its unique multi-role, aeromedical, airdrop, special-operations 
and austere airfield capabilities (short/unimproved airfields, direct 
delivery). It is clear that we need both. The three RERP aircraft 
currently in flight test are performing well. Outside of RERP testing, 
there are other legacy aircraft issues emerging, which will also need 
to be addressed. No modernization program can address everything. As we 
see with all our aging aircraft, unforeseeable issues continue to 
materialize. Investment in new aircraft is the only other option 
currently available that reduces the risks associated with an aging 
aircraft fleet.
    Dr. Gingrey. Mr. Secretary, I supported the procurement of C-17s to 
replace the C-141, and Congress is on track to provide funding for 190 
of these aircraft. The MCS, QDR, and the AF's own program of record 
also support C-5 modernization as part of the nation's strategic 
airlift solution set. These studies have all suggested that 292 
aircraft are sufficient. By my numbers, the AF will grow to 301 
strategic airlift aircraft, which appears to meet all of those 
requirements. Considering Congress' previous support for your airlift 
plans, why do you now present the dilemma that C-5As need to be 
immediately replaced by additional C-17s? From my perspective, there is 
nothing to preclude the AF from buying additional C-17s today. However, 
it was the AF that chose not to put additional C-17s in the budget, nor 
include any additional C-17s in its top 25 unfunded priorities for 
FY08. Why is the AF sending such mixed signals? Given the fact that the 
C-5 fleet has 70% service life remaining, and that the benefits of C-5 
modernization are clearly documented (last year the USAF told us RERP 
pays for itself while generating an additional savings of $11.4B BY00$ 
or $38B TY$s), why would the AF not accelerate this program for the 
entire C-5A/B/C fleet to realize even greater future savings while 
maximizing cargo capacity?
    Secretary Wynne. The ongoing evaluation of the RERP program has 
brought previous estimates of cost savings into question. The 
assumptions that led to predictions of $11.4B in cost savings through 
2040 did not account for the recently identified cost pressures 
associated with engines, pylons, and touch labor. The Air Force is 
currently engaged in a detailed cost estimating effort to establish a 
service cost position for C-5 RERP. This detailed cost estimate is 
forecast to complete by July 2007. The three RERP aircraft currently in 
flight test are performing well technically. However, there are other 
legacy aircraft issues emerging, such cracks in the fuselage crown 
skins, which will also need to be addressed.
    Although the Air Force did not include additional C-17s in the FY08 
budget, we did include additional C-17s in the FY08 Unfunded Priority 
List as a part of Remaining Requirements.
    Acceleration of the C-5 modernization program could in result in 
higher O&S savings and mitigate upward programmatic cost pressure, but 
in the current fiscally constrained environment this is a challenge for 
the Air Force.

                                  <all>

</pre></body></html>
